<html>
<title> - BUILDING A STRONGER ECONOMY: SPURRING REFORM AND INNOVATION IN AMERICAN EDUCATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      BUILDING A STRONGER ECONOMY:
                     SPURRING REFORM AND INNOVATION
                         IN AMERICAN EDUCATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 3, 2010

                               __________

                           Serial No. 111-48

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
54-738                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="482f3827082b3d3b3c202d2438662b272566">[email&#160;protected]</a>  

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 3, 2010....................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    42
    Kline, Hon. John, Senior Republican Member, Committee on 
      Education and Labor........................................     4
        Prepared statement of....................................     5
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     2
        Prepared statement of....................................     3
        Questions submitted for the record.......................    42

Statement of Witness:
    Duncan, Hon. Arne, Secretary, U.S. Department of Education...     7
        Prepared statement of....................................    10
        Responses to questions submitted.........................    49


                      BUILDING A STRONGER ECONOMY:
                     SPURRING REFORM AND INNOVATION
                         IN AMERICAN EDUCATION

                              ----------                              


                        Wednesday, March 3, 2010

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 9:33 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Andrews, 
Scott, Woolsey, McCarthy, Tierney, Kucinich, Wu, Holt, Davis, 
Grijalva, Bishop of New York, Loebsack, Hirono, Hare, Clarke, 
Courtney, Shea-Porter, Fudge, Polis, Pierluisi, Sablan, Titus, 
Chu, Kline, Petri, McKeon, Castle, Souder, Biggert, Guthrie, 
Cassidy, Hunter, Roe and Thompson.
    Staff Present: Tylease Alli, Hearing Clerk; Jeff Appel, 
Senior Education Policy Advisor/Investigator; Andra Belknap, 
Press Assistant; Calla Brown, Staff Assistant, Education; Jody 
Calemine, General Counsel; Jamie Fasteau, Senior Education 
Policy Advisor; Denise Forte, Director of Education Policy; 
Ruth Friedman, Senior Education Policy Advisor; David Hartzler, 
Systems Administrator; Fred Jones, Junior Legislative 
Associate, Education; Sharon Lewis, Senior Disability Policy 
Advisor; Sadie Marshall, Chief Clerk; Ricardo Martinez, Policy 
Advisor, Subcommittee on Higher Education, Lifelong Learning 
and Competitiveness; Charmaine Mercer, Senior Education Policy 
Advisor; Alex Nock, Deputy Staff Director; Lillian Pace, Policy 
Advisor, Subcommittee on Early Childhood, Elementary and 
Secondary Education; Kristina Peterson, Legislative Fellow, 
Education; Rachel Racusen, Communications Director; Julie 
Radocchia, Senior Education Policy Advisor; Alexandria Ruiz, 
Administrative Assistant to Director of Education Policy; 
Melissa Salmanowitz, Press Secretary; Ajita Talwalker, 
Education Policy Advisor; Dray Thorne, Senior Systems 
Administrator; Mark Zuckerman, Staff Director; Stephanie Arras, 
Minority Legislative Assistant; James Bergeron, Minority Deputy 
Director of Education and Human Services Policy; Kirk Boyle, 
Minority General Counsel; Casey Buboltz, Minority Coalitions 
and Member Services Coordinator; Allison Dembeck, Minority 
Professional Staff Member; Amy Raaf Jones, Minority Higher 
Education Counsel and Senior Advisor; Barrett Karr, Minority 
Staff Director; Alexa Marrero, Minority Communications 
Director; Susan Ross, Minority Director of Education and Human 
Services Policy; Mandy Schaumburg, Minority Education Policy 
Counsel; and Linda Stevens, Minority Chief Clerk/Assistant to 
the General Counsel.
    Chairman Miller. A quorum being present, the committee will 
come to order.
    This morning we will be conducting a committee meeting so 
that members of the committee can have a conversation with the 
Secretary, and the Secretary can present his views and goals 
for the Department.
    And, Mr. Secretary, I want to welcome you to the committee 
and thank you for joining us. This is your second appearance 
before this committee. Last May you came and gave us an 
overview of President Obama's education agenda from cradle to 
career. You discussed the administration's unprecedented 
commitment to incentivizing education reforms through the Race 
to the Top program. You told us about the administration's 2010 
budget which proposed groundbreaking initiatives to improve 
early education, college access and completion.
    Under your direction the Department of Education since has 
made tremendous progress in these goals. The Recovery Act 
funded 300,000 education jobs, supporting teachers, librarians, 
and counselors. The carrot approach of Race to the Top has 
already proven to be a catalyst for change. Forty States and 
the District of Columbia have applied to compete by focusing on 
data-driven reforms that will strengthen the quality of 
teachers, standards, assessments, and help turn around 
struggling schools. We will hear more about this from you 
today.
    Last fall with your help and support, the House passed 
President Obama's proposal to originate all new Federal student 
loans through the reliable, cost-effective Direct Loan Program. 
The Congressional Budget Office estimates that this will save 
about $87 billion over 10 years. We will use these savings to 
raise the bar for early learning, transform community colleges, 
modernize schools and make historic investments in student aid. 
Many colleges are already taking steps to offer Direct Loans to 
better protect students from the shaky credit markets. We hope 
that the Senate will soon take the decisive action on behalf of 
millions of families by voting to make college affordable and 
invest in students and taxpayers instead of the banks. If 
Congress wants to show we are serious about changing 
Washington, this bill is a great place to start.
    Today you are here to tell us about how you and we can 
build a stronger economy by providing our students with the 
knowledge and skills they need to compete globally. For the 
second year in a row, President Obama's budget reflects the 
innovative vision for education. It requests $4.5 billion 
increase over last year for the Department of Education and 
$2.5 billion increase for early education in Health and Human 
Services, a signal of his belief that the stronger the 
education is vital to student success down the road.
    It calls for fixing the Elementary and Secondary Education 
Act, currently known as No Child Left Behind, and sets aside a 
billion dollars if Congress reaches that goal. It calls for 
Congress to enact the Student Aid and Fiscal Responsibility 
Act.
    And, Mr. Secretary, as you have said so many times to this 
committee, we need to educate our way to a better economy. I 
think these proposals help us achieve that goal. However, too 
many of our students are not reaching their full academic 
potential through no fault of their own. They are not being 
taught to the same rigorous standards as their international 
peers. They also aren't getting a strong foundation in math, 
science and other innovative fields. College Presidents tell us 
that high school graduates aren't ready for college, and 
business leaders and CEOs tell us they can't find workers who 
are trained for the jobs for the future.
    It is time to finally do something about the education 
crisis in this country that impacts our competitiveness and our 
position as the leader in the global economy. President Obama 
has set a critical goal for producing the most college 
graduates in the world by 2020. To get there we will need to 
reform ESEA so that it fulfills the promise of an excellent 
education for every student that prepares them for the rigors 
of college and good jobs.
    In recent years a seismic shift has been happening in our 
schools and in our conversation about education. There is now a 
willingness to consider ideas just a few years ago that were 
controversial, such as performance pay. There is now an 
understanding that you can give States and districts the room 
to innovate without watering down accountability or standards.
    Several weeks ago we announced that we are moving forward 
with a bipartisan and open and transparent effort to overhaul 
our Nation's education laws. We will seek input from all 
stakeholders who share our serious interest in improving our 
schools. And we will look to you throughout this process, Mr. 
Secretary. You have already shown tremendous leadership, and 
you have revitalized the Department. You have established that 
the status quo is no longer acceptable. We look forward to 
continuing working with you to ensure top-notch education and 
all of the opportunities it promises for every student in 
America. Thank you.
    [The statement of Mr. Miller follows:]

          Prepared Statement of Hon. George Miller, Chairman,
                    Committee on Education and Labor

    Good morning.
    Secretary Duncan, thank you for joining us for your second 
appearance before this Committee.
    Last May, you gave us an overview of President Obama's education 
agenda, from cradle to career.
    You discussed the administration's unprecedented commitment to 
incentivizing education reforms through the Race to the Top program.
    You told us about the administration's 2010 budget, which proposed 
groundbreaking initiatives to improve early education and college 
access and completion.
    Under your direction, the Department of Education has since made 
tremendous progress on those goals.
    The Recovery Act funded 300,000 education jobs, supporting 
teachers, librarians and counselors.
    The carrot approach of Race to the Top is already proving to be a 
catalyst for change.
    Forty states and the District of Columbia have applied to compete 
by focusing on data-driven reforms that will strengthen the quality of 
teachers, standards, assessments and help turn around struggling 
schools.
    We'll hear more about this progress today.
    And last fall, with your help and support, the House passed 
President Obama's proposal to originate all new federal student loans 
through the reliable and cost-effective Direct Loan program.
    The Congressional Budget Office estimates this will save $87 
billion over 10 years.
    We will use these savings to raise the bar for early learning, 
transform community colleges, modernize schools, and make historic 
investments in student aid.
    Many colleges are already taking steps to offer Direct Loans to 
better protect students from shaky credit markets.
    We hope the Senate will soon take decisive action on behalf of 
millions of families by voting to make college more affordable and 
invest in students and taxpayers--instead of banks.
    If Congress wants to show we're serious about changing Washington, 
this bill is a great place to start.
    Today you are here to tell us how you--and we--can build a stronger 
economy by providing our students with the knowledge and skills they 
need to compete globally.
    For the second year in a row, President Obama's budget reflects his 
innovative vision for education.
    It requests a $4.5 billion increase over last year in the 
Department of Education and a $2.5 billion increase for early education 
at Health and Human Services, a signal of his belief that a strong 
early education is vital to student success down the road.
    It calls for fixing the Elementary and Secondary Education Act, 
currently known as No Child Left Behind, and sets aside $1 billion if 
Congress reaches that goal. It calls for Congress to enact the Student 
Aid and Fiscal Responsibility Act. Mr. Secretary, you have frequently 
said that we need to ``educate our way to a better economy.''
    Across the political spectrum, I think we all agree. Too many of 
our students are not reaching their full academic potential, through no 
fault of their own.
    They are not being taught to the same rigorous standards as their 
international peers. They also aren't getting a strong foundation in 
math, science and other innovative fields. College presidents tell us 
high school graduates aren't ready for college. Business leaders and 
CEOs tell us they can't find workers who are trained for the jobs of 
the future.
    It's time to finally do something about the education crisis in 
this country that impacts our competitiveness and our position as a 
leader in a global economy. President Obama has set a critical goal of 
producing the most college graduates in the world by 2020. To get 
there, we will need to reform ESEA so that it fulfills its promise of 
an excellent education for every student that prepares them for the 
rigors of college and good jobs.
    In recent years, a seismic shift has been happening in our schools 
and in our conversations about education. There is now willingness to 
consider ideas that just a few years ago were controversial--such as 
performance pay.
    There is now an understanding that you can give states and 
districts the room to innovate without watering down accountability or 
standards. Several weeks ago, we announced that we're moving forward 
with a bipartisan, open and transparent effort to overhaul our nation's 
education laws.
    We will seek input from all stakeholders who share our serious 
interest in improving our schools. And we'll look to you throughout the 
process, Mr. Secretary. You've already shown us tremendous leadership 
and you've revitalized the Department. You've established that the 
status quo is no longer acceptable.
    We look forward to continue working with you to ensure a top-notch 
education--and all of the opportunities it promises--for every student 
in America. Thank you.
                                 ______
                                 
    Chairman Miller. With that I would now like to recognize 
the senior Republican on the committee Congressman Kline for 
purposes of an opening statement.
    Mr. Kline. Thank you, Mr. Chairman.
    And thank you, Mr. Secretary, for being with us today.
    I notice that we have an extremely limited amount of time 
with the Secretary today, so I am going to limit my remarks so 
others will have a chance to ask questions as we go through the 
day.
    Secretary Duncan came to Washington billed as a reformer, 
and I believe he has lived up to that reputation. In 
particular, his willingness to stand up to the unions and old 
ways of doing business has been a refreshing change.
    There are policies on which I agree with Secretary Duncan, 
and that gives me hope for a bipartisan approach to education 
reform. For example, the Secretary understands high-performing 
charter schools are critical in expanding options for parents 
and students. He also understands that we need to reward the 
best teachers and remove ineffective teachers from the 
classroom. These issues will play a big role in the discussion 
when it comes time for Congress to reauthorize the Elementary 
and Secondary Education Act.
    But there are other issues we will have to address in which 
agreement may not be quite so easy. Members and staff in both 
the House and Senate have been meeting with the Secretary these 
last several weeks in preparation for the eventual overhaul of 
ESEA. To help guide that process, Republicans recently released 
a series of principle reforms. Briefly, those are restoring 
local control, empowering parents, letting teachers teach and 
protecting taxpayers.
    The Secretary has talked about how innovation comes from 
the ground up. I agree with that sentiment, which is why I am 
troubled by recent proposals that indicate a more heavy-handed 
Federal approach. For example, the idea that academic standards 
would have to be federally approved either through 
participation in a government-sanctioned set of common 
standards or direct consent by an unnamed Federal entity looks 
to many of us like national standards.
    Federal law prohibits involvement of the U.S. Department of 
Education in school curriculum. This is not a question of 
semantics. Putting the FederalGovernment in charge of what is 
taught and tested in the classroom would be a radical departure 
from this country's approach to education. So, Mr. Secretary, 
that is an issue we will need to discuss.
    The same heavy-handed approach can be seen in the recent 
higher education negotiated rulemaking, particularly when it 
comes to the proposals for schools, especially those in the 
proprietary sector, to demonstrate that their graduates have 
achieved, quote, ``gainful employment.'' My concerns with that 
process are too numerous to detail here, but it is certainly an 
issue we will need to address in another forum.
    Before I conclude, I would be remiss if I did not address 
the Department's budget proposal for 2011. Anyone who knows me 
knows about my concerns about IDEA funding. Mr. Secretary, you 
recall the very first time we met, I raised this concern. And I 
have to tell you, I am deeply, deeply disappointed with the 
IDEA funding in this budget. I am confident we will have a 
chance to explore that later this morning.
    Thank you for being here, Mr. Secretary. We have lots of 
work to do together, and I look forward to hearing from you.
    I yield back, Mr. Chairman.
    [The statement of Mr. Kline follows:]

   Prepared Statement of Hon. John Kline, Senior Republican Member, 
                    Committee on Education and Labor

    Thank you Chairman Miller, and thank you Mr. Secretary for joining 
us. We have an extremely limited amount of time with the Secretary to 
cover a number of pressing topics, so I will keep my remarks brief.
    Secretary Duncan came to Washington billed as a reformer, and I 
believe he has lived up to that reputation. In particular, his 
willingness to stand up to the unions and the old ways of doing 
business has been a refreshing change.
    There are policies on which I agree with Secretary Duncan, and that 
gives me hope for a bipartisan approach to education reform. For 
example, the Secretary understands high-performing charter schools are 
critical in expanding options for parents and students. He also 
understands that we need to reward the best teachers and remove 
ineffective teachers from the classroom.
    These issues will play a big role in the discussion when it comes 
time for Congress to reauthorize the Elementary and Secondary Education 
Act. But there are other issues we'll have to address, on which 
agreement may not be quite so easy.
    Members and staff in both the House and Senate have been meeting 
with the Secretary these last several weeks in preparation for the 
eventual overhaul of ESEA. To help guide that process, Republicans 
recently released a series of principles for reform. Briefly, those 
are: 1) Restoring Local Control; 2) Empowering Parents; 3) Letting 
Teachers Teach; and 4) Protecting Taxpayers.
    The Secretary has talked about how innovation comes from the ground 
up. I agree with that sentiment, which is why I am troubled by recent 
proposals that indicate a more heavy-handed federal approach. For 
example, the idea that academic standards would have to be federally 
approved--either through participation in a government sanctioned set 
of common standards or direct consent by an unnamed federal entity--
looks to many of us like national standards.
    Federal law prohibits involvement of the U.S. Department of 
Education in school curriculum. This is not a question of semantics. 
Putting the federal government in charge of what is taught and tested 
in the classroom would be a radical departure from this country's 
approach to education, so Mr. Secretary, that's an issue we'll need to 
discuss.
    This same heavy-handed approach can be seen in the recent higher 
education negotiated rulemaking, particularly when it comes to the 
proposals for schools, especially those in the proprietary sector, to 
demonstrate that their graduates have achieved ``gainful employment.'' 
My concerns with that process are too numerous to detail here, but it's 
certainly an issue we'll need to address in another forum.
    Before I conclude, I would be remiss if I did not address the 
Department's budget proposal for FY 2011. Anyone who knows me knows 
that my first priority in the education budget is to fully fund the 
Individuals with Disabilities Education Act.
    For 35 years, the federal government has failed to live up to this 
obligation to states and schools. Year after year, we find room in the 
budget for new programs and new mandates. Some of these are good 
ideas--others are not. But from my perspective, we should not be 
funding any new programs or initiatives until we've fully funded the 
obligations already on the books.
    The $250 million increase for IDEA provided in this year's budget 
is, quite frankly, an outrage. For all the time this Administration has 
spent touting the significant education spending increases provided in 
a supposedly austere budget, the pittance provided for special 
education is unacceptable. We can simply do better for our states and 
schools.
    Thank you for being here Mr. Secretary, we have lots of work to do 
together and I look forward to hearing from you. I yield back.
                                 ______
                                 
    Chairman Miller. I thank the gentleman, and I would like to 
take a moment to introduce Arne Duncan. He doesn't need an 
introduction to this committee, but for the public, Secretary 
Duncan was nominated to be Secretary of Education by President 
Obama. Prior to that appointment as Secretary of Education, 
Secretary Duncan served as the chief executive officer of the 
Chicago Public Schools and became the longest-serving big-city 
education superintendent in the country. As CEO, Secretary 
Duncan raised education standards and performance, improved 
teacher and principal quality, and increased learning options.
    Secretary Duncan has 7\1/2\ years tenure. He united 
education reformers, teachers, principals and the business 
stakeholders, behind an aggressive education reform agenda. As 
Secretary of Education he spearheaded major education reforms, 
including the Race to the Top program and Investing in 
Innovation Fund. I know I am not alone in saying that he has 
done a tremendous amount in just his first year to improve the 
educational opportunities for children across the country.
    We welcome you, Mr. Secretary, to the committee, and thank 
you for giving us your time, your expertise and this report to 
the Education and Labor Committee.
    One moment before you start, I would like to recognize, as 
privilege of the Chair, the chancellor of our California State 
University system Charles Reed, Chancellor Reed behind you.
    Thank you, Charlie, for being here.
    Mr. Secretary, you are recognized. As you know, we will 
give you 5 minutes. Because you are the Secretary, if you take 
a couple extra minutes, we want you to be coherent and impart 
the information you think is important to the members of this 
committee. Thank you, and welcome.

           STATEMENT OF HON. ARNE DUNCAN, SECRETARY,
                  U.S. DEPARTMENT OF EDUCATION

    Secretary Duncan. Thank you, Mr. Chairman, for the 
opportunity to speak today, and thank you for the extraordinary 
leadership and commitment you have shown around education.
    As you know, I submitted written testimony outlining our 
2011 budget request, which is built around three core areas: 
college and career ready standards developed not by us, but by 
States at the local level; supporting and rewarding excellence 
in the classroom, and excellence in educational leadership; and 
carving out a smarter, more targeted Federal role to give 
States and districts as much flexibility as possible while 
ensuring as much accountability as possible.
    At the same time we are working with members of this 
committee and your colleagues in the Senate in a bipartisan way 
to reauthorize the Elementary and Secondary Education Act. And 
I am deeply grateful for your support and hard work.
    As we continue that process, and, again, I love the sense 
of bipartisan commitment, there are a couple of themes that are 
important to me. First of all, focusing much more on growth and 
gain; how much are students improving each year, year to year. 
Are we improving graduation rates? That is hugely important.
    Having high standards, not dummying down things due to 
political pressure, but really making sure that our students 
around the country truly are college and career ready is very 
important.
    Making sure there is that flexibility at the local level. 
We can't begin to, nor do we want to micromanage, 100,000 
schools from Washington. The best ideas will always come at the 
local level, and we want to continue to support that.
    Fourth, we have to continue to reward excellence. Great 
teachers, great principals, schools, school districts, States 
make a huge difference in students lives. Under the previous 
law there are numerous ways to fail, but very few rewards for 
success. We want to change that.
    And then finally, for those schools, not the 99 percent of 
schools, but that 1 percent of schools at the bottom, however 
you want to define it, where things simply are not working for 
children, we want to be clear that the status quo can't 
continue, that we have to get better.
    I am happy to take any questions about our 2011 budget 
request and our broader ESEA reauthorization agenda. I would 
like to use my opening remarks today to talk about our teacher 
quality agenda.
    Teachers and principals are the real game changers in 
education reform. The men and women working in schools and 
classrooms are making a difference in the lives of children 
every single day. We must support them, empower them and invest 
to strengthen and elevate the teaching profession. Great 
teachers and principals are absolute heroes, helping students 
accomplish dreams that the students themselves may have thought 
unattainable. That is why our 2011 budget seeks $3.9 billion to 
improve teacher quality. This is an increase of $350 million, 
or 10 percent. Most of that money, $2.5 billion, will be 
distributed by formula as it always has been; however, we will 
push States and districts to invest this formula money more 
effectively on school-based professional development that 
provides teachers and leaders with the real support they need 
to succeed; on evaluation systems that recognize great teachers 
and give teachers useful real-time feedback on how to improve; 
and on supporting collaborative work so that teachers can work 
together and improve their practice.
    We want more money used to give great teachers and to keep 
them in high-need schools through better development and 
mentoring as well as incentive pay. About $950 million in our 
budget request will go out competitively to support innovative 
ways of boosting teacher and principal quality. Folded into 
this bucket is the Teacher Incentive Fund that districts use 
for pay-for-performance programs, innovative programs developed 
at the local level that have both management and union support. 
Dozens of such programs are operating successfully today in 
school districts around the country.
    Lastly, about $400 million will support high-quality 
preparation programs for teachers and leaders who want to work 
in high-need schools. We want to get the best from all 
backgrounds into the classroom, from midcareer professionals to 
college graduates, to military veterans. Getting and, more 
importantly, keeping great teachers and principals at high-need 
schools is also at the heart of our Turnaround program. And I 
want to take a few minutes to walk through that with you.
    As you know, school improvement grants are funded through 
the Title I program. The dollars are distributed to States by 
formula and competed out to districts. Between the Recovery Act 
and our last two budgets, we have $4 billion for turning around 
our Nation's low-performing schools. This money targets the 
bottom 5 percent of schools, roughly 5,000 schools nationwide, 
including 2,000 high schools that by themselves produces about 
half of our Nation's dropouts.
    These schools are struggling academically, and the children 
and the community need better. Under our regulations districts 
that want to compete for a share of this $4 billion in 
Turnaround money have four options. They can replace the 
principal, but keep the teachers and improve the school through 
professional development, strengthening the instructional 
program, and extended learning time and other strategies. 
Districts can close the school and hire a new principal who can 
hire back up to half of those teachers. Districts can also 
close the school and reopen under new governance, or they can 
simply close the school and send children to a better school 
elsewhere, which is most likely to happen in big districts 
where enrollment is declining.
    Turnaround programs are currently under way all across the 
country, in Charlotte, North Carolina; Delaware; New York; 
Colorado; Louisiana; Boston; Chicago; Philadelphia; Los 
Angeles; South Carolina; and Cincinnati. In many cases they 
work with existing staff; in others, a high percentage of staff 
is replaced. We encourage both bold approaches and a 
collaboration among unions, parents and administrators.
    Working at low-performing schools is extraordinarily hard 
work. It takes talented, committed staff willing to do whatever 
it takes to help those children be successful. You need great 
leadership, effective supports and more time for learning. We 
support all of that. These will always be local decisions, not 
Federal decisions. We can't make these decisions in Washington, 
and they must be made at the local level. And we encourage 
adults at the local level to collaborate and work together to 
do what is best for children.
    As hard as this work is, it is also critically important. 
And for all the challenges, I have never been more optimistic. 
Across this country, Mr. Chairman, we have never had more high-
performing, high-priority schools than we do today. We know 
what is possible. We have to take to scale what works and make 
those shining examples not the exception, but the norm.
    Before we get to questions, I want to make a few points 
about our budget request. First of all, there is still some 
confusion about competitive versus formula funding. We are 
absolutely committed to continuing the formula funding in 
programs like Title I and IDEA, as well as programs serving 
English language learners, homeless children, migrant and rural 
students. Every State faces educational challenges with special 
populations, and we would never put those children at risk. At 
the same time, every State needs to get better, and as Race to 
the Top has demonstrated, a little bit of competitive funding 
can eliminate barriers to collaboration and reform.
    I also want to make a few points about efficiency in our 
budget request. We have eliminated earmarks and cut programs 
that were duplicative or ineffective, saving hundreds of 
millions of dollars. We have also consolidated a number of 
programs to reduce red tape for schools and districts seeking 
grant funds. We want them spending their time not on paperwork 
and bureaucracy dealing with us, but on working with their 
students.
    Looking ahead we still have money from the Recovery Act to 
distribute, including through Race to the Top and the 
Investment in Innovation Fund. We have approximately $11 
billion in special education and Title I funding to distribute. 
We have billions more in Pell grants, and we have several 
billion dollars left in the State Fiscal Stabilization Fund 
which will also go out in the months ahead. However, I am 
deeply concerned about States' funding shortfalls in the 
upcoming school year, and I am very hopeful that we can do 
something to help States avert an education catastrophe that 
would sacrifice vital education programs.
    We also need the Senate to consider the proposal that 
passed the House to eliminate banker subsidies and shift to 
direct lending, because our early learning and higher education 
agenda depends on that.
    There is much more I would like to talk about, but let me 
stop there and take your questions.
    Chairman Miller. Thank you very much, Mr. Secretary.
    [The statement of Secretary Duncan follows:]

           Prepared Statement of Hon. Arne Duncan, Secretary,
                      U.S. Department of Education

    Chairman Miller, Ranking Member Kline and Members of the Committee: 
Thank you for this opportunity to come before this Committee and talk 
about improving education in America. I want to begin by thanking 
Chairman Miller, as well as other Members of the Committee, for your 
extraordinary leadership over the past year on behalf of American 
students and their families. It was just over a year ago that Congress 
and President Obama worked together to complete the American Recovery 
and Reinvestment Act of 2009 (Recovery Act).
    This legislation will deliver nearly $100 billion to Recovery Act 
recipients, including States and school districts, to help address 
budget shortfalls in the midst of the most severe financial crisis and 
economic recession since the Great Depression. To date, the Department 
has awarded more than $69 billion. For the quarter ending December 31, 
2009, recipients reported that assistance from the Department of 
Education funded approximately 400,000 jobs overall, including more 
than 300,000 education jobs, such as principals, teachers, librarians 
and counselors. These numbers are consistent with the data submitted in 
October, during the first round of reporting, and this consistency 
reflects the steady and significant impact of the Recovery Act. 
Although State and local education budgets remain strained, schools 
systems throughout the country would be facing much more severe 
situations were it not for the Recovery Act. The Recovery Act has also 
helped families and students pay for college by increasing federal 
student aid.
    I believe, however, that the Recovery Act did much more than just 
provide short-term financial assistance to States and school districts. 
Indeed, I think the Recovery Act will be seen as a watershed for 
American education because it also laid the groundwork for needed 
reforms that will help improve our education system and ensure 
America's prosperity for decades to come. Thanks to the Recovery Act, 
all States now are working to strengthen their standards and 
assessments; improve teacher and leader effectiveness; improve data 
systems and increase the use of data to improve instruction; and turn 
around low-performing schools.
    In addition, the Recovery Act helped to jumpstart a new era of 
innovation and reform, including through the $4 billion Race to the Top 
program and the $650 million Investing in Innovation Fund. States 
already have demonstrated their interest in the reforms called for by 
the Recovery Act and Race to the Top. Just in preparation to apply for 
Race to the Top grants, States have made essential changes, such as 
allowing data systems to link the achievement of individual students to 
their teachers and enabling the growth or expansion of high quality 
charter schools. States also are demonstrating the progress they have 
made toward implementing the reforms called for in the State Fiscal 
Stabilization Fund in their applications for Phase II of that funding. 
We must continue to invest in innovation and scale up what works to 
make dramatic improvements in education. The President's fiscal year 
2011 budget (``budget request'') includes $1.35 billion for Race to the 
Top awards, both for States and for a new school district-level 
competition--and we greatly appreciated your statement of support for 
that initiative, Mr. Chairman. The 2011 budget request also includes 
$500 million for the Investing in Innovation (i3) program.
    This Committee also developed and helped to win House passage of 
the Student Aid and Fiscal Responsibility Act (SAFRA), which would make 
much-needed reforms to Federal postsecondary student aid programs that 
would enable us to make key investments in education by redirecting the 
tens of billions of dollars that otherwise would be spent on 
unnecessary subsidies to lenders over the next decade. These 
investments include expanding student aid though a more generous Pell 
Grant program and low-cost student loans, preparing students and 
workers for 21st Century jobs to increase our social well-being and 
economic prosperity, including through President Obama's American 
Graduation Initiative, and helping more low-income children enter 
school with the skills they need to succeed through the President's 
Early Learning Challenge Fund. SAFRA also includes important 
investments in Historically Black Colleges and Universities and 
minority-serving institutions. We share your commitment to this 
important legislation, which is strongly supported by the 2011 budget, 
and are working to win Senate approval for it as soon as possible.
    Once again, thank you for your achievements during the past year. 
It is a record to be proud of, and one on which I hope we will build as 
we continue to move forward in the coming year.

President Obama's 2011 budget request
    As you know, last month President Obama released his fiscal year 
2011 budget request. The centerpiece of the 2011 budget request for the 
Department of Education is the pending reauthorization of the 
Elementary and Secondary Education Act (ESEA). The President is asking 
for a discretionary increase of $3.5 billion for fiscal year 2011, of 
which $3 billion is dedicated to ESEA, the largest-ever requested 
increase for ESEA. Moreover, if together, we complete an ESEA 
reauthorization that is consistent with the President's plan, the 
Administration will submit a budget amendment for up to an additional 
$1 billion for ESEA programs. But, our budget and reauthorization are 
not simply about more resources--they also are about using resources 
more effectively. We would greatly appreciate your support for this 
historic budget and look forward to working with you on the 
reauthorization.
    As part of developing the 2011 budget request and performance plan, 
the Department of Education has identified a limited number of high-
priority performance goals that will be a particular focus over the 
next two years. These goals, which will help measure the success of the 
Department's cradle-to-career education strategy, reflect the 
importance of teaching and learning at all levels in the education 
system. The Department's goals include supporting reform of struggling 
schools, improvements in the quality of teaching and learning, 
implementation of comprehensive statewide data systems, and simplifying 
student aid. These goals and key initiatives and other performance 
information are included in the President's Fiscal Year 2011 Budget 
materials and are on www.ed.gov.

ESEA reauthorization
    Our 2011 budget request incorporates an outline of our thoughts 
about ESEA reauthorization. We have thought a great deal about the 
appropriate Federal role in elementary and secondary education, and 
want to move from a simple focus on rules, compliance, and labeling of 
insufficient achievement, toward a focus on flexibility for States and 
local educational agencies (LEAs) that demonstrate how they will use 
program funds to achieve results, and on positive incentives and 
rewards for success. That is why, for example, our 2011 budget request 
includes $1.85 billion in new funding for the Race to the Top and i3 
programs. In addition, our reauthorization proposal for Title I, Part A 
of ESEA would reward schools or LEAs that are making significant 
progress in improving student outcomes and closing achievement gaps. We 
also propose to increase the role of competition in awarding ESEA funds 
to support a greater emphasis on programs that are achieving successful 
results.
    We believe that our goals of providing greater incentives and 
rewards for success, increasing the role of competition in Federal 
education programs, supporting college- and career-readiness, turning 
around low-performing schools, and putting effective teachers in every 
classroom and effective leaders in every school require a restructuring 
of ESEA program authorities. For this reason, our reauthorization 
proposal would consolidate 38 existing authorities into 11 new programs 
that give States, LEAs, and communities more choices in carrying out 
activities that focus on local needs, support promising practices, and 
improve outcomes for students, while maintaining critical focus on the 
most disadvantaged students, including dedicated programs for students 
who face unique challenges, such as English language learners and 
homeless, neglected and delinquent and migrant students.

College- and career-readiness
    Another key priority builds on the Recovery Act's emphasis on 
stronger standards and high-quality assessments aligned with those 
standards. We believe that a reauthorized Title I program, which our 
budget request would fund at $14.5 billion, should focus on graduating 
every student college- and career-ready. States would adopt standards 
that build toward college- and career-readiness, and implement high-
quality assessments that are aligned with and capable of measuring 
individual student growth toward these standards. Our budget request 
would provide $450 million (a 10 percent increase) for a reauthorized 
Assessing Achievement program (currently State Assessments) to support 
implementation of these new assessments.
    States would measure school and LEA performance on the basis of 
progress in getting all students, including groups of students who are 
members of minority groups, low-income, English learners, and students 
with disabilities, on track to college- and career-readiness, as well 
as closing achievement gaps and improving graduation rates for high 
schools. States would use this information to differentiate schools and 
LEAs and provide appropriate rewards and supports, including 
recognition and rewards for those showing progress and required 
interventions in the lowest-performing schools and LEAs. To help turn 
around the nation's lowest-performing schools, our budget would build 
on the $3 billion in school improvement grants provided in the Recovery 
Act by including $900 million for a School Turnaround Grants program 
(currently School Improvement Grants). This and other parts of our 
budget demonstrate the principle that it is not enough to identify 
which schools need help--we must encourage and support state and local 
efforts to provide that help.

Effective teachers and school leaders
    We also believe that if we want to improve student outcomes, 
especially in high-poverty schools, nothing is more important than 
ensuring that there are effective teachers in every classroom and 
effective leaders in every school. Longstanding achievement gaps 
closely track the inequities in classrooms and schools attended by poor 
and minority students, and fragmented ESEA programs have failed to make 
significant progress to close this gap. Our reauthorization proposal 
will ask States and LEAs to set clear standards for effective teaching 
and to design evaluation systems that fairly and rigorously 
differentiate between teachers on the basis of effectiveness and that 
provide them with targeted supports to enable them to improve. We also 
will propose to restructure the many teacher and teacher-related 
authorities in the current ESEA to more effectively recruit, prepare, 
support, reward, and retain effective teachers and school leaders. Key 
budget proposals in this area include $950 million for a Teacher and 
Leader Innovation Fund, which would support bold incentives and 
compensation plans designed to get our best teachers and leaders into 
our most challenging schools, and $405 million for a Teacher and Leader 
Pathways program that would encourage and help to strengthen a variety 
of pathways, including alternative routes, to teaching and school 
leadership careers.
    We also are asking for $1 billion for an Effective Teaching and 
Learning for a Complete Education authority that would make competitive 
awards focused on high-need districts to improve instruction in the 
areas of literacy, science, technology, engineering, mathematics, the 
arts, foreign languages, civics and government, history, geography, 
economics and financial literacy, and other subjects. We propose these 
programs in addition to a $2.5 billion Effective Teachers and Leaders 
formula grant program to States and LEAs, to promote and enhance the 
teaching profession.
    In addition, throughout our budget, we have included incentives for 
States and LEAs to use technology to improve effectiveness, efficiency, 
access, supports, and engagement across the curriculum. In combination 
with the other reforms supported by the budget, these efforts will pave 
the way to the future of teaching and learning.

Improving STEM outcomes
    One area that receives special attention in both our 2011 budget 
request and our reauthorization plan is improving instruction and 
student outcomes in science, technology, engineering, and mathematics 
(STEM). The world our youth will inherit increasingly will be 
influenced by science and technology, and it is our obligation to 
prepare them for that world.
    The 2011 request includes several activities that support this 
agenda and connect with President Obama's ``Educate to Innovate'' 
campaign, which is aimed at fostering public-private partnerships in 
support of STEM. Our goal is to move American students from the middle 
of the pack to the top of the world in STEM achievement over the next 
decade, by focusing on (1) enhancing the ability of teachers to deliver 
rigorous STEM content, and providing the supports they need to deliver 
that instruction; (2) increasing STEM literacy so that all students can 
master challenging content and think critically in STEM fields, and 
participate fully as citizens in an America changed by technology in 
ways we cannot envision; and (3) expanding STEM education and career 
opportunities for underrepresented groups, including women and girls 
and individuals with disabilities.
    Specifically, we are asking for $300 million to improve the 
teaching and learning of STEM subjects through the Effective Teaching 
and Learning: STEM program; $150 million for STEM projects under the 
$500 million request for the i3 program; and $25 million for a STEM 
initiative in the Fund for the Improvement of Postsecondary Education 
to identify and validate more effective approaches for attracting and 
retaining, engaging and effectively teaching undergraduates in STEM 
fields. And, I have directed the Department to work closely with other 
federal agencies, including the National Science Foundation, the 
Department of Defense, the National Aeronautics and Space 
Administration, and the National Institutes of Health to align our 
efforts toward our common goal of supporting students.

Comprehensive solutions
    We also recognize that schools, parents, and students will benefit 
from investments in other areas that can help to improve student 
outcomes. Toward that end, we are proposing to expand the new Promise 
Neighborhoods program by including $210 million to fund school reform 
and comprehensive social services for children in distressed 
communities from birth through college and career. A restructured 
Successful, Safe, and Healthy Students program would provide $410 
million to--for the first time--systematically measure school climates, 
which we know can affect student learning. This will help direct 
funding to schools that show the greatest need for resources to 
increase students' safety and well-being by reducing violence, 
harassment and bullying, promote student physical and mental health, 
and prevent student drug, alcohol, and tobacco use.

College access and completion
    The Administration has made college- and career-readiness for all 
students the goal of its ESEA reauthorization proposal, because most 
students will need at least some postsecondary education to compete for 
jobs in the 21st Century global economy. For this reason, we are 
proposing a College Pathways and Accelerated Learning program that 
would increase high school graduation rates and preparation for college 
by providing students in high-poverty schools with opportunities to 
take advanced coursework that puts them on a path toward college. This 
new program would help expand access to accelerated learning 
opportunities such as Advanced Placement and International 
Baccalaureate courses, dual-enrollment programs that allow students to 
take college-level courses and earn college credit while in high 
school, and ``early college high schools'' that allow students to earn 
a high school degree and an Associate's degree or two years of college 
credit simultaneously.
    Just as essential to preparing students for college is ensuring 
that students and families have the financial support they need to pay 
for college. As I noted earlier, the Administration supports passage of 
SAFRA, which would make key changes in student financial aid and higher 
education programs that are consistent with President Obama's goal of 
restoring America's status as first in the world in the percentage of 
college graduates by 2020. In combination with SAFRA, the 2011 request 
would make available more than $156 billion in new grants, loans, and 
work-study assistance--an increase of $58 billion or 60 percent over 
the amount available in 2008--to help almost 15 million students and 
their families pay for college. And another achievement of the Recovery 
Act, the new American Opportunity Tax Credit, will provide an estimated 
$12 billion in tax relief for 2009 filers. The budget proposes to make 
this refundable tax credit permanent, which will give families up to 
$10,000 to help pay for four years of college.
    The 2011 budget request would bring the maximum Pell grant to 
$5,710, nearly a $1,000 increase since the President took office. In 
that time, the number of students receiving grants has grown from six 
million to nearly nine million, and the total amount of aid available 
has nearly doubled. In addition, the budget request would make funding 
for the Pell Grant program mandatory rather than discretionary, to 
eliminate annual uncertainty about Pell Grant funding and end the 
practice of ``backfilling'' billions of dollars in Pell Grant funding 
shortfalls.
    No one should go broke because of student loan debt. That is why 
our budget also would help borrowers struggling to repay student loans 
by reducing the minimum payment to 10 percent of their discretionary 
income, and providing for all of their debt to be forgiven after 20 
years--10 years if they choose a career in public service. These 
changes will help more than one million borrowers next year.

Improving outcomes for adult learners
    The 2011 budget request includes funding for a variety of programs 
that support adult learners, including career and technical education, 
and adult basic and literacy education. These programs provide 
essential support for State and local activities that help millions of 
Americans develop the knowledge and skills they need to reach their 
potential in a global economy. For example, our request would provide 
$1.3 billion for Career and Technical Education (CTE) State Grants, to 
support continued improvement and to increase the capacity of programs 
to prepare high school students to meet state college and career-ready 
standards. One of our greatest challenges is to help the 90 million 
adults who would enhance their career prospects by increasing their 
basic literacy skills. For this reason, we also are asking for $612.3 
million for Adult Basic and Literacy Education State Grants, an 
increase of $30 million over the comparable 2010 level, to help adults 
without a high school diploma or the equivalent to obtain the knowledge 
and skills necessary for postsecondary education, employment, and self-
sufficiency.

Improving outcomes for persons with disabilities
    The budget also includes several requests and new initiatives to 
enhance opportunities for students and other persons with disabilities. 
For example, the budget request includes a $250 million increase for 
grants to States under the Individuals with Disabilities Education Act, 
to help ensure that students with disabilities receive the education 
and related services they need to prepare them to lead productive, 
independent lives. The $3.6 billion request for Rehabilitation Services 
and Disability Research would consolidate nine programs under the 
Rehabilitation Act into three, to reduce duplication and improve the 
provision of rehabilitation and independent living services for 
individuals with disabilities. The request includes a $6 million 
increase over the 2010 level for a new Grants for Independent Living 
program (which consolidates the Independent Living State Grants and 
Centers for Independent Living) and would provide additional funding 
for States with significant unmet needs. It also includes $25 million 
for a new program that would expand supported employment opportunities 
for youth with significant disabilities as they transition from school 
to the workforce, through competitive grants to States to develop 
innovative methods of providing extended services.
    The Budget provides $112 million for the National Institute on 
Disability and Rehabilitation Research to support a broad portfolio of 
research and development, capacity-building, and knowledge translation 
activities. And the request includes $60 million, $30 million under 
Adult Education and $30 million under Vocational Rehabilitation, for 
the Workforce Innovation Fund, a new initiative in partnership with the 
Department of Labor. The proposed Partnership for Workforce Innovation, 
which encompasses $321 million of funding in the Departments of 
Education and Labor, would award competitive grants to encourage 
innovation and identify effective strategies for improving the delivery 
of services and outcomes for beneficiaries under programs authorized by 
the Workforce Investment Act. This investment will create strong 
incentives for change that, if scaled up, could improve cross-program 
delivery of services and outcomes for beneficiaries of programs under 
the Workforce Investment Act.

Conclusion
    In conclusion, thanks to the combined leadership of President 
Obama, Chairman Miller and the Members of this Committee, and others, 
we have made extraordinary progress in meeting the needs of our schools 
and communities in the midst of financial crisis and recession, making 
long-needed reforms in our Federal postsecondary student aid programs, 
and reawakening the spirit of innovation in our education system from 
early learning through college. The next step to cement and build on 
this progress is to complete a fundamental restructuring of ESEA. I 
know that all of you are interested in this reauthorization and that 
many of you have worked on these issues for years, and in many cases, 
decades, and I look forward to working with the Committee toward that 
goal. I have every confidence that with your continuing leadership and 
strong support from President Obama and the American people, we will 
accomplish this important task.
    Thank you. I would be happy to answer any questions you may have.
                                 ______
                                 
    Chairman Miller. I will ask you the question about ESEA 
since almost every Monday or Tuesday when I return to 
Washington, D.C., my colleagues come up to me and ask when are 
we going to do the reauthorization of ESEA. And between us I 
don't know if we have a complete answer to that question yet.
    One, I want to commend you for spending a considerable 
amount of time over the last several months meeting with both 
the Republican and Democratic leaders in the House and the 
Senate on this issue, and then the Chairs and Ranking Members 
of the committees in the House and the Senate, and then to 
convening our meetings among the Chairs, and the Ranking 
Members, and the subcommittee members to discuss this. I think 
this is a very positive development in terms of developing a 
bipartisan bill for the reauthorization, and I want to thank 
you for that.
    The other part of this, before I get to maybe a little 
elaboration on your part on the timeline, is that what 
intrigues me about Race to the Top--and I recognize it is not 
completed yet, and people have made application, and you are 
going to go through that process, and the Innovation Fund, and 
I think even the common standards--is that States and in some 
cases quite possibly school districts, they get to initiate the 
reform, they get to decide. If a Governor doesn't believe that 
common standards aren't good for them, if he or she doesn't 
want to take a shot at internationally benchmarked standards to 
measure their students and try to develop the curriculum and 
achievement, then they will make that choice. And as we saw in 
Race to the Top, most Governors made the decision that they 
wanted to try and compete, knowing that they will not all 
necessarily be successful, but hopefully those that do will 
show others how it can be done and the changes for that.
    I am really encouraged by this, that I think it is very 
often that we suggest reforms, but they are not properly 
funded. So I think that in this case what you have seen is, in 
my own State where there is great resistance to many of the 
parts by different parts of the education community, they came 
together in the State legislature. I am not saying what they 
passed was perfect, but they have taken that first big step 
where 2, or 3, 4 years ago you could not discuss it. And I 
think that is important. I think, again, that had to be done on 
a bipartisan basis in the State legislatures all across the 
country. And so I think this is a pretty darn good beginning.
    The questions about time frame is I think our discussion 
suggests that we would really like to get this done this 
session of Congress. We know that the Congress had a huge 
amount of activity in its last session. We had the economy that 
we had to deal with, we had a crisis in our financial 
institutions, and it took up a lot of people's time. I assume 
that is consistent with all of the groundwork that you laid for 
these meetings and the meetings where the joint staffs and the 
bicameral staffs have been working together. If you would like 
to elaborate on that, I think it would be helpful to the 
members of the committee, because they may have more detailed 
questions that they want to ask you.
    Secretary Duncan. That is absolutely the goal. And I think 
there is so much that we can do to fix the current law. I think 
far too many schools, and school districts, and teachers have 
been labeled failures when they are not.
    Let me give you an example. If I am a fifth-grade teacher, 
and a child comes to me three grade levels behind reading at a 
second grade level, and that child leaves my classroom reading 
at a fourth-grade level, on No Child Left Behind that teacher, 
that school, ultimately that district, is labeled a failure. I 
would argue not only is that teacher not a failure, that 
teacher is a remarkable success. That child gained 2 years of 
growth for 1 year's instruction. That is remarkable, remarkable 
work.
    We need to emphasize gain, we need to emphasize 
improvement. We need to make sure that students are being 
taught a well-rounded curriculum. I have heard throughout the 
country a narrowing of the curriculum. And we want to make sure 
not just our high school students, but our elementary students 
have access to arts and music, science, social studies. Reading 
and math are hugely important, but we can't focus exclusively 
there.
    We have talked about having high standards around the 
country. It is critically important that our students graduate 
from high school college and career ready. And in so many 
places, due to political pressure, not due to what is right for 
children, or not due to what is right for that State's economy, 
standards have been dummied down, and ultimately that is not 
what our students need. We need to raise expectations. It is 
not what our country needs. We need to educate our way to a 
better economy.
    So I think we have a huge opportunity working together, 
working through where we have legitimate differences, in 
finding compromises. I think we have a chance to dramatically 
improve, stop labeling so many places as failures, have high 
standards for everybody, reward success, reward excellence, but 
be tough-minded where things aren't working.
    Chairman Miller. We had a hearing earlier this week on Mr. 
Polis' bill on charter schools, and one of our witnesses was 
Eva Moskowitz, who runs the Success Academy in the Harlem 
Children's Zone, and she is a tough defender of what she is 
doing. And she said the deal was this, that in her mind when 
she opened these schools inside of the New York City school 
system as a public charter, that she was trading outcomes for 
flexibility. And her job was to deliver the outcomes, and it 
was the system's obligation to provide her some flexibility to 
design and to deploy personnel and parents and community and 
others in support of those kids. It sounds a little bit like 
what you are outlining here.
    We have talked about the growth model, how it could be 
shaped, how it could be improved. And we want to make sure that 
those children are on target to be ready to go to college or 
enter a career when they graduate from high school, and that 
they graduate from high school. Easier said than done, but I 
think the right concept, so that the Federal Government might 
back out of some of the business of the districts that we are 
now pretty deeply involved in.
    Secretary Duncan. That is absolutely philosophically 
aligned. I think one of the things, one of the big issues, 
problems, challenges with the current law, is it got 
fundamentally wrong what you manage tight and what you manage 
loose. NCLB was extraordinarily loose on the goals. And so, 
again, those goals got dummied down, 50 different goalposts all 
over the country. That is not good. Very loose there, but very 
tight, very prescriptive on how you get there.
    I want to flip that literally on its head. I want to be 
very tight on the goals, have a high bar, college-ready, 
career-ready standards, again, determined by the States at the 
local level, not by us; have a high bar, but then give folks 
much more flexibility and be much less prescriptive about how 
they get there. Hold them accountable for results as in your 
example. But we can't, nor should we, be micromanaging 100,000 
schools.
    I would go further. We need to recognize success. There are 
so many great schools, great school districts, States that are 
both raising the bar for all children and dramatically closing 
the achievement gap. We have to learn from them. Under the No 
Child Left Behind, there are like 50 ways to fail, but very few 
awards for excellence. Where we have seen folks knock the ball 
out of the park year after year after year working with very 
disadvantaged children, seeing remarkable results, we need to 
replicate that, and we need to reward that, we need to clone 
that as much as we can. And we have a huge opportunity here, I 
think, to get those things right that didn't quite work the 
first time around.
    Chairman Miller. Thank you, Mr. Secretary.
    I recognize Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    And again, thank you, Mr. Secretary, for being here. I want 
to say again publicly how much I approve, how much I applaud 
the approach that we are taking at looking at reauthorizing 
ESEA, the work. And just echoing Chairman Miller's comments, 
the fact that we are working together in a bipartisan, 
bicameral way with the White House and with the Department 
starting with a blank piece of paper to see what we can do is 
absolutely the right process, and I applaud that and thank you 
for it.
    IDEA. Mr. Secretary, I just look at the numbers, and you 
know I expressed my disappointment with the previous 
administration, Bush administration, as well for not funding 
this in the budget. We have known now for over 30 years that 
the Federal Government is supposed to provide 40 percent of the 
excess funding required. Looking back over a 10-year period, in 
2000 we were at 12 percent, worked our way up to a peak in the 
2005 period of around 18 percent, and this budget shows us at 
17 percent.
    If we would just meet the Federal obligation, we would help 
every school in America, every school district, every 
administrator, every principal, every teacher. Parents all over 
my district and all over the districts of all of us here would 
like to see that funded. And in this budget where we need to 
reach 26.1 billion, we have got 11.755 billion. And in the 
words of our friend and colleague, the Member of Congress from 
Connecticut Ms. DeLauro, she says, this is budget dust. And it 
is, $250 million. It is very, very disappointing.
    Mr. Secretary, I heard you just say that there are 
efficiencies in this budget, saving hundreds of millions of 
dollars. If we save hundreds of millions of dollars, how could 
we only get $250 million for IDEA? I am not even talking about 
other priorities that have gone in here; 1.35 billion for more 
Race to the Top, 500 million for I3. A billion is just sitting 
there for an ESEA contingency, 7.5 billion over 10 years to 
expand income-based repayment options and forth. There are 
other priorities in here that it seems to me we could have 
addressed, but just in the hundreds of millions of dollars in 
efficiencies, we can only do $250 million for IDEA? How can 
that be? Why did that happen?
    Secretary Duncan. It is a more than fair question. So I 
don't think of $250 million as budget dust. I think that is 
real money. I understand that is nowhere near where you would 
like it to be. A couple other thoughts on it. As you know, we 
requested $12 billion through the ARRA Act to increase IDEA 
funding. About half of that has been spent this year.We 
anticipate the other half, $6 billion, still being available 
for the upcoming school year, fall 2010. So there is a huge 
increase there.
    And secondly, as you know, so much of what we are trying to 
do through Race to the Top and other funding, while it is not 
direct to IDEA, all those programs, if we improve education, 
that is going to significantly improve education for children 
with disabilities. So between the $250 million increase, $6 
billion under the ARRA Act, and all the other grants we want to 
put out to districts and States, those will touch and improve 
outcomes for students with disabilities.
    Mr. Kline. Mr. Secretary, thank you for the answer.
    We have had this discussion before as well. The stimulus 
money, if you go out and talk to the school administrators and 
school boards in schools across the country, they look at this 
stimulus money as sort of one-time money. They can't use it to 
fix the program, they can't use it to go out and hire more 
teachers. That is the reason we need to put certainty in the 
budget. We have a spike of money that came out of this. Some of 
it can't be used to be spent in the ways they wanted.
    I just reiterate to you that I appreciate the answer, you 
know. You are defending the President's budget. That is your 
job. I just want to tell you how deeply disappointed I am, and, 
I think, schools across the country. There had to be groans 
from coast to coast when they looked and saw $250 million. And 
I understand $250 million is money, but in terms of what we 
need here, in terms of this budget, Ms. DeLauro is correct, it 
is budget dust. This should have been billions of dollars not 
250 million.
    I yield back, Mr. Chairman.
    Chairman Miller. Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman.
    Mr. Secretary, I enjoyed hearing you read Dr. Seuss to the 
third-graders yesterday. It is good to see that your are still 
in the trenches in education.
    Secretary Duncan. Thank you.
    Mr. Kildee. Last year we had 1.16 billion for the 21st 
Century Learning Centers. The President's budget puzzles me a 
bit by proposing to make the 21st century initiatives include 
extending learning time and full-service community schools. 
That essentially would cut resources for the 21st Century 
Learning Centers. Those centers have been very successful, and 
they go beyond just the educational, intellectual, but the 
social development of the child. How do you propose to keep 
those 21st Century Learning Centers healthy and productive?
    Secretary Duncan. Great question. Obviously I am a huge, 
huge fan of after-school programming. This is where I normally 
get booed by students when I talk a lot about the school day 
having to be longer, and the school week, and the school year. 
I would love our schools to be open 12, 13, 14 hours a day, 
particularly in disadvantaged communities. Our students need 
more than what we are giving them now, and those programs we 
want to continue to support.
    This has caused some confusion or controversy, but what we 
tried to do is to do fewer things, but to do them well. We have 
focused our funding in K-12 in sort of six big buckets around 
innovation; around teachers and leaders, as I have talked a lot 
about; about a well-rounded education; around making sure 
students are college- and career-ready; focusing on diverse 
learners. But the one that is most relevant to you, Mr. 
Congressman, is around student support. And that total pot of 
money, which the after-school money, 21st Century Learning 
Center is part of it, that is up to $1.8 billion. There is a 
$245 million increase there. So there are a whole series of 
things we want to do to make sure our students are safe and 
healthy and have a chance to be successful. The Promise 
Neighborhoods money is in there.
    I will also say that one thing we haven't talked about that 
the President made a very unusual statement in his budget, on 
top of the money we are discussing today, he has requested an 
additional billion dollars if we pass, if we reauthorize ESEA 
this year. Part of how we want to use the additional billion 
dollars is more money for after-school programming. So the 
total pot there to support students, including after-school 
programming, is up about 245 million. If we successfully 
reauthorize, there is a chance for significant new resources to 
come that direction as well.
    Mr. Kildee. I think we and the Appropriations Committee 
really have to be focused very carefully, because we have a 
program--it started when Secretary Riley was Secretary of 
Education--that has been very, very successful. I visited them 
throughout the country, and I am very, very skeptical about 
lessening our help for those programs that have proven. In 
Flint, Michigan, I tell you, they have saved many, not only a 
child, but many a family because of that program.
    Secretary Duncan. Yes, yes.
    Mr. Kildee. I just am very, very skeptical, but I am going 
to listen more.
    Secretary Duncan. I hear your concern. Again, to be clear, 
we requested a $245 million increase, so we don't see anything 
going down here. We want increased resources there and 
additional money on top of that if the ESEA passes. So we want 
to have more students going--staying in schools longer hours, 
getting the community supports engaged there; not just 
children, I would argue families as well, parents, GED, ESL, 
family literacy nights. The more our schools truly become 
community centers, the better our children are going to do.
    Mr. Kildee. We will continue the discussion. By the way, I 
appreciate your reaching out to both sides of the aisle in 
writing this bill. I think you have done really goodwill, and I 
personally appreciate that. I have been in this Congress for 34 
years, and it is good to have a Secretary who does recognize 
it. The best education bills we ever pass are bipartisan 
education bills, and I appreciate your work on that.
    Let me ask you one thing. You are talking about teacher 
development and teacher evaluation. Are you meeting with 
teacher organizations to get their input on that issue?
    Secretary Duncan. I meet with the leaders of the major 
national unions on a daily basis. I was with the head of the 
NEA yesterday. I am with the head of the AFT tomorrow. Their 
input is hugely important.
    Let me just say, everyone agrees, teachers, everyone, 
teacher evaluations in this country are largely broken. They 
don't work for adults. I spoke before the AFT convention, I 
went and spoke before the NEA, I said that, and everybody 
applauded. Teacher evaluations today generally don't reward 
excellence. We don't identify the best teachers. We don't 
support those in the middle, and we don't weed out those at the 
very bottom, who, after great support and mentoring, shouldn't 
be teaching. And if it doesn't work for any adults, it is 
definitely not working for children either.
    So we have a real opportunity to do this together. This has 
to be done with the input, with the support, with the 
collaboration of teachers and teachers unions, but where we 
have meaningful evaluation that helps any of us--this is any 
profession--grow and develop, and recognizes talent and 
supports that in the middle, and some folks, if it is not 
working, being honest about that. We have to get there as a 
country. There is a huge opportunity here, and everybody wants 
to work on this. Nobody is defending the status quo, nobody.
    Mr. Kildee. Thank you, Mr. Secretary.
    Chairman Miller. Thank you.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Morning, Mr. Secretary. It is good to see you again.
    Secretary Duncan. Good morning.
    Mr. McKeon. For the job that you are doing, I have just a 
couple of concerns I would like to address this morning. First 
I am concerned about a proposal that was discussed during the 
recent negotiated rulemaking decision surrounding an attempt by 
the Department to define ``gainful employment'' in a way that 
will force closure of many good programs, specifically in the 
proprietary schools. Has the Department heard about these 
concerns, and could you detail the analysis the Department has 
done to examine the impact of the proposal to ensure that good 
schools will not be forced to close down these very important 
programs?
    Secretary Duncan. As you know, we have put out some drafts, 
and we have had lots of conversation. By no means is this a 
decisionmaking point. This is a three-step process. There is a 
draft that is out there. In June we will put out a proposal and 
get feedback on that, and then we will come back for final 
rulemaking in November. So we have lots of time on this. I 
would love to have your thoughts, your input on what the right 
thing to do is here.
    We are by no means wedded to any one direction. We want to 
make sure students are not being abused or taken advantage of, 
but we don't won't to be heavy-handed or overly heavy-handed 
here. So whatever thoughts you have. Placement is important to 
us, graduation rates are important to us, default rates are 
important to us, and you want to let the free market play. You 
also at the ends of the free market want to make sure bad 
actors aren't taking advantage of folks who are really working 
to try and improve their lives. I am a big believer in 
competition, and I think the market will play here, and bad 
actors will lose business.
    So at the very end of the spectrum, I think we need to hold 
folks accountable, but we don't want to put in place something 
that has unintended consequences. So if you have thoughts or 
ideas in this, we are more than open, and, again, we have lots 
of time here to work this thing through.
    Mr. McKeon. I appreciate that, and I will be contacting you 
about those concerns.
    I know No Child Left Behind has some detractors, it has 
some champions. No bill is perfect. But I thought one of the 
good things that came out of No Child Left Behind was the 
supplemental education services. Now, the administration has 
provided numerous waivers to States and school districts, and 
one of the concerns I have is that the administration's 
opposition to SES is restrictive to some by granting these 
waivers to some of the schools, and that it causes some low-
income and some people that benefit greatly from that program 
that can't use the services or can't make them available. So I 
am wondering why is the Department doing this through waiver 
and circumventing the Congress? Why don't we wait and address 
this during the reauthorization process?
    Secretary Duncan. Let me just be very, very clear. I am not 
at all in opposition to supplemental services. In fact, you 
will be hard pressed to find a bigger advocate for tutoring and 
more time than me. My mother has run an after-school tutoring 
program for 49 years now. I ran an after-school tutoring 
program for 6 years before I joined the Chicago Public Schools, 
and so this is in my DNA.
    Sort of thinking out loud here, what I philosophically 
think is that, you know, should we be mandating this, or should 
districts have an opportunity to use their resources in the 
best way to help students improve? And again, should we be from 
Washington saying, you have to do this, or should we be saying, 
here is the pot of money; if this is the right way to do it, go 
ahead and do it? If you have a better idea, we will hold you 
accountable for results, you do it.
    You may remember a couple of years ago when I was on the 
other side of the law, I fought the Department of Education 
like heck because they were refusing to let me tutor. I had 
tens of thousands of poor children who were below grade level, 
and the Department was trying to tell me I wasn't allowed to 
tutor. And fortunately, we had data that showed that we were 
doing it at about a third of the cost of the private providers, 
and that our results--we had objective, quantifiable data that 
showed that we were getting better outcomes for students than 
about two-thirds of the providers--my numbers wouldn't be 
exact--the majority of providers we were doing a better job at 
about a third of the cost. I always will thank the previous 
administration for finally, after a bit of a battle, seeing the 
light and letting us help literally tens of thousands of 
students who would have been denied.
    So I am going to be very, very clear. I am absolutely for 
tutoring, I am for accountability around it, and I am for 
results. Where districts have Title I money, whatever money 
they have, if this is the right--you know, good actors should 
get business, nonprofits, for-profits districts; bad actors 
should not get business. And I want to empower local education 
to figure out what the right thing to do for their children is.
    I don't know if that answers your question. I want to be 
very clear how I am thinking about this issue.
    Mr. McKeon. I know that that is where you are, because we 
have had discussions about this before, and I have heard you 
talk about your DNA and how this is so important to you. My 
concern is that there may be others in the Department that 
don't have quite those same concerns, and I know that there is 
at a local level conflict between the unions wanting to keep 
the SES out, or make sure that they get the money, that their 
teachers are the ones that are doing all that work. So I just 
appreciate you maybe looking into that and seeing that some 
aren't being deprived of that.
    Secretary Duncan. I will. And let me just--so hold me 
accountable on that. Let us continue the conversation. I will 
be very clear. I don't think this is the unions fighting the 
providers. Let me tell you what happened. What was the irony of 
this in Chicago, we checked all this, the overwhelming majority 
of folks hired by the private providers were actually union 
teachers. They hired them and paid them what we were paying 
them. The difference was we weren't taking any overhead, we 
weren't making a profit. The private providers were making a 
profit. Some were doing a good job, some weren't doing a good 
job, but every dollar that went to their bottom line was 
another child in a desperately long waiting list who didn't 
have an opportunity.
    So this is not the union's opposing this, these are union 
teachers getting paid to the dollar what we----
    Mr. McKeon. It is in some areas.
    Secretary Duncan. Okay, okay. Got it.
    Mr. McKeon. Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Payne.
    Mr. Payne. Thank you very much. Good to see you, and I wish 
you continued success.
    We talk about the President's goal to lead with college 
graduation by the year of 2020. I am wondering how we are 
looking at programs like TRIO and GEAR UP in support of the 
goals. Are these programs still being embraced in your budget? 
I didn't get a chance to go through it that specifically, and I 
actually would be suggesting perhaps increases in those 
programs. Tell me where you stand on that.
    Secretary Duncan. Yeah, I am a big fan and supporter of 
TRIO and GEAR UP. There have been a couple of things, there has 
been some rumors and numbers out, that somehow those numbers 
decreased.
    Let me give you our numbers here. The numbers actually went 
up between TRIO and GEAR UP in 2009 by about 6,100 students. It 
went up, so from 738,000 to roughly 747,000. So there has been 
some significant increases there.
    We want to support students going on to college and to 
graduating. We have as part of the SAFRA bill that you guys 
have passed, and appreciate the leadership and support of the 
Senate, $2.5 billion in the College Access and Completion Fund. 
There is a chance for these programs to continue to grow and 
expand. And so again, we want to find ways to provide support 
particularly for disadvantaged students to not just 
successfully graduate from high school and not just go to 
college, but graduate at the back end. We are programmed to 
doing a great job at that. We want to continue to support that.
    Mr. Payne. In the same vein, and maybe we are reading your 
budget incorrectly, but I think you proposed the elimination of 
funding for the LEAP program, and, of course, as you know, many 
States are certainly struggling. And I am just wondering if 
that is true, and why at this point would--I know everyone is 
cost-conscious, but why would you move in that direction at 
this time?
    Secretary Duncan. What we are looking to do is, again, 
bucket programs in these larger buckets. Naturally we increased 
funding in every single bucket that we did. So around college- 
and career-ready students, there is a $354 million increase 
there. So we are trying to put more money behind programs that 
are working, but consolidate them, but some places compete them 
out. So programs can demonstrate success, we are going to put 
more resources there. Where things aren't working, we want to 
move them elsewhere.
    Mr. Payne. Thanks. And I agree with you in the Leave No 
Child Behind. When you called a school a failing school, there 
was supposed to be a component that it would show the yearly 
annual progress, I guess. However, and actually students were 
supposed to have, failing students, a plan for that individual 
student. I wonder have you looked into being able to urge the 
educators to do those plans that are supposed to be for each 
failing kid?
    Secretary Duncan. It is a great question. And the thing 
that has most troubled me with what I call this dumbing down of 
standards is there are lots of students who have worked hard, 
and they have been told by districts and States that they are 
on track to be successful. What I honestly think, Congressman, 
is that we have lied to those children; that in many places 
these standards have been so reduced, those students that are 
hitting the State standard, this proficiency level, because the 
bar is so low, they are barely able to graduate from high 
school, and they are totally inadequately prepared to be 
successful in college.
    We have to stop lying to people. And so if we have a higher 
bar, we need to be very clear about college- and career-ready 
standards coming out of high school.
    And then to your point, we need to back-map that, this is 
what these 48 States, Governors, State schoolteachers are 
doing, their work, not ours, being driven to local levels, 
which is exactly what should happen--we need to back-map that 
to eighth grade, fifth grade and third grade so that our sons 
and daughters know what their strengths and weaknesses are, are 
they on track, or are they not. Where they're on track? Great. 
Where they're behind? The child, the parent, after school, the 
teacher needs to work together behind that. And we have not had 
those honest conversations. By doing that and getting it to the 
individual child student level, we have a chance, I think, to 
get much better results over the long haul.
    Mr. Payne. Quickly before my time expires, there is--I have 
seen a lot of attention, of course, to charter schools. I know 
that is one of the big moves in this administration. However, I 
have seen less interest, it appears, in failing public schools 
and really concentrating on that. Now, the charters, you know, 
you are going to get the parents who have the initiative. You 
know, in charter schools, if one sibling is in it, the other 
automatically gets in it. The failing schools just become more 
chronically bad. And I just think that they are not going away. 
And I believe that as much attention has to be put into--I 
would like to see some of those charter school people take the 
failing public school that everybody is still at and make that 
successful.
    Charter school can be successful, no question about it. And 
actually Seton Hall University, which I want to give you a 
proposal, has a plan where they want to take failing schools, 
work with the teachers union, and keep the kids right there 
where they are and make them successful, rather than cherrypick 
and send them to the new charter schools that we see going up 
all around.
    Secretary Duncan. It is a great point. And to be clear, I 
am a fan of good charters, not a fan of all charters. Some 
charters are great, and some charters are part of problem. I 
have been very clear with the charter community around that.
    We are putting $4 billion behind turning around the 
Nation's lowest-performing schools. We all have to get together 
behind this. We all have to say where we 50, 60, 70 percent of 
students dropping out, they have no chance of chasing the 
American dream. There are no good jobs out there. All of us 
have to get in the business of turning around these schools. 
District, universities, States, charter organizations, unions, 
all of us have to step up to the plate.
    There is a tiny handful of charter groups who are actually 
doing this. Green Dot in Los Angeles took over a charter 
school, took over a school, kept all the kids. I think in the 
first year attendance went up for the students about 12 
percent, which means students were going to school about a 
month more. Mastery Charter in Philadelphia took over a school. 
It was the second most violent school there. Violence basically 
disappeared. They went in 2 years from 7 percent of students in 
seventh grade math at proficiency levels, to about 54 percent, 
like a 700 percent increase, same children, same socioeconomic 
challenges.
    So charters can be part of the solution, but all of us have 
to be part of the solution. Charters can't begin to do this 
alone; they don't have the capacity. States, districts, unions, 
nonprofits, charters, all of us have to step up.
    And to me it is a manageable number. Every year we should 
be taking those chronically underperforming schools and doing 
something differently as a country, as a Nation. If we do that, 
these students in very, very tough communities will perform 
exponentially better. This is hard work, it is tough. This is 
the hardest work, I would argue, in America today.
    Folks often think, too, it is an urban issue. We talk about 
2,000 dropout factories, about half are in urban areas, about 
20 percent are suburban, about 30 percent rural. This is a 
national challenge. So we all have to think about this, and the 
answers have to be local levels. It would be very, very 
different situation by situation, case by case, but we have to 
do something. We can't just stand on the sidelines and continue 
to see these things happened.
    Mr. Kildee [presiding]. Governor Castle.
    Mr. Castle. Thank you, Mr. Chairman.
    Mr. Secretary, my first question is a little bit off 
anything you talked about, but I wandered around and looked at 
many programs supported by businesses in this country, not just 
in Delaware, but all over the country, too. And I watched the 
charter movement particularly in my State, and some of our best 
schools now are charter schools. Others have had to give up 
their charter as charter schools because they sort of basically 
failed.
    My question to you, is your research arm or is anybody in 
the Department trying to collate the information about what 
these business programs are that work? I am not talking about 
regulating them or anything like that, but just trying to find 
out what works in the charter schools, what works in some of 
these business programs that are offered as a matter of 
understanding and knowledge so that others could borrow from 
that in the regular school system?
    Secretary Duncan. We are trying to do it. To me, again, it 
is not just--so there are, again, very high-performing charter 
schools, and there are mediocre charter schools, and there are 
charter schools that should be closed, all along that spectrum. 
And the same is true for traditional schools. I have argued in 
our country we just need more good schools of every form and 
fashion, but particularly more good schools in communities that 
have been historically underserved.
    We are trying to track that where I am spending lots of 
time looking at high-performing, high-poverty schools. And so 
we have lots of schools that are 70, 80, 90 percent poverty, 
students living below the poverty line, where 80, 90 percent 
students graduate, and we are really beating the odds. And some 
of those might be charter; some may be traditional.
    So I think there are huge examples. Again, that is one of 
my frustrations historically is for all of these challenges, we 
have never had more examples of hope. We have never had more 
examples to understand not because of one miraculous child or 
one miraculous teacher, but year after year these schools are 
betting the odds.
    So we have to--to your point, we have to learn from them, 
so we do have folks looking at those schools, what is happening 
there, what are the core strategies, how do we replicate that 
success. At elementary, middle schools, high schools, we have 
across the country people doing extraordinary work every single 
day.
    Somehow we have been scared to talk about success. We have 
been scared to talk about excellence. I don't understand that. 
I think there is so much we can talk about with these high-
performing schools. What they do is they put the lie in and the 
myth that poor children can't learn, that children in 
disadvantaged communities can't be successful. I think we have 
to be very open and have those tough conversations.
    Mr. Castle. You and I discussed before and this committee 
has discussed before what the States have been doing in terms 
of the Governors getting together with respect to standards, 
and I assume assessments to some degree. Can you give us an 
update on all that? This may lead to national standards from 
the States up, not from the Federal Government.
    Secretary Duncan. They can't, and, again, to address Mr. 
Kline's concerns, if they are national or Federal standards, 
this thing dies. It should always be driven at the local level. 
We should not be touching that. We should not be touching 
curriculum. I couldn't agree more.
    The fact of the matter is this is being led by 47 Governors 
and 48 State school chiefs. It is interesting. You guys who 
follow this know 3 years ago this is probably a third rail; you 
couldn't talk about this. But you have the leadership at State 
level, you have the heads of both unions absolutely supportive, 
pushing very hard in this direction. You have the business 
community who has been begging for this for years. You have 
great nonprofits like College Board and Achieve who are behind 
this, so this is an idea whose time has really come.
    I met two weekends ago with Governors from around the 
country, NGA, to see their level of enthusiasm, bipartisan and 
Democrat across the country, keep working hard together, I 
can't tell you how encouraging that is.
    To your point, once you have--and they are still getting 
there. Kentucky has been the first State to adopt, which is 
great, and other States are now following suit.
    Once you have a higher bar, then you need to have better 
assessments, more comprehensive assessments behind that. Our 
concern was that States would have the courage to do the right 
thing in terms of standards, but, because they are under such 
huge financial pressure, would not be able to get better 
assessments behind a high standard. So we took $350 million 
from Race to the Top, carved that aside, and we are going to 
put that out on a competitive basis to groups and States who 
want to work to create better assessments. So they won't be our 
assessments, they won't be Federal assessments, they will be 
assessments driven at the local level. And so we try to remove 
the financial impediment to getting there.
    So this is going to take some time, and there are some 
transition issues we have got to work through, but over the 
next couple of years, if we could look every child in the 
country in the eye and say that we have real college-ready 
standards for you, and we have much more thoughtful, 
comprehensive assessments behind that, that is a huge 
breakthrough, huge breakthrough.
    Mr. Castle. You spoke about teacher quality, a question or 
two about that. Do you support alternative certification of 
teachers in whatever way you might support it? And I have heard 
you talk before about teacher colleges of education and the 
fact that they perhaps need to do more in terms of both 
preparation and who they are attracting and that kind of thing. 
I would be interested in your comments how we could improve 
teacher quality.
    Secretary Duncan. So schools of education, we have hundreds 
and hundreds of schools of education. You have As and Fs and 
everything in between.
    I will tell you, I traveled to 37 States last year and 
talked to hundreds and hundreds of teachers, new teachers, all 
teachers, veteran teachers, you name it. The consistent theme I 
heard from teachers, again urban, rural, suburban, across, was 
two complaints or two issues they had with their own schools of 
education, their own preparation. One is they felt they 
generally did not have enough hands-on training. They weren't 
in classrooms with real children enough. Too much around 
philosophy and history of education; not enough about how to 
manage this classroom of children.
    Secondly, there has been this outpouring of innovation over 
the past 5, 10 years in terms of real-time data that is helping 
teachers improve their instruction on a daily basis and 
differentiate instruction. Teachers' jobs have never been 
harder than they are today. You have a huge range of students' 
abilities coming into your classroom, and how with 28, 30, 34 
students, how do you teach that wide range? You have to 
differentiate instruction. There is all this great data now 
that helps you understand each child, where they are, what is 
working, what is not.
    Almost none of that data-driven instruction training is 
going on in schools today. There are great teachers who have 
all learned on the job; and they are questioning, why didn't I 
get that at the front end? So those two things, more hands-on 
practical work in classrooms, and, secondly, much more data-
driven instruction training are the two major issues that I've 
heard almost universally around the country.
    In terms of alternative certification, again, to me, I 
always think these are false dichotomies. We just need more 
great teachers coming in. And we are in a tough time now with 
the tough economy and teacher layoffs. I am very concerned 
about that.
    But if you look a little bit over the horizon, over the 
next 6, 8 years, we could have as many as a million teachers 
retire. We have the baby boomer generation that is going now. 
And so our ability to attract and retain great talent over the 
next 5, 6, 8 years is going to shape public education in this 
country for the next 30 years. It is a generational shift.
    Whether it is through alternative certification, whether it 
is through traditional schools of education, we just need to 
find out how we get the hardest-working, most-committed 
teachers into the classroom and then, more specifically, into 
underserved communities.
    Let me give you one example. I am sorry I am going a little 
long here, but I keep citing this example.
    In Louisiana, they are tracking the data from hundreds of 
thousands of students back to tens of thousands of teachers and 
from those teachers back to those teachers' schools of 
education or the alternative certification in the past, 
wherever they came from. And so, in Louisiana, they can tell 
you which schools of education are producing the teachers that 
are producing the students that are learning the most. And what 
you are having is you are having schools of education change 
their curriculum based upon the results of their alumni's 
children.
    This is not about gotchas. This is about continuous 
improvement. And we have one State doing it. You have other 
States moving in that direction, but Louisiana doesn't have 
some patent on some of the amazing technology that the world 
can't share. They have simply had the courage to say that 
teachers matter tremendously, and we want to understand which 
teachers are working well. And schools of education have said, 
hey, this is a chance for us to get better. This is an idea, I 
think, again, why do we have one out of 50? What are we missing 
here as a country?
    Mr. Castle. Thank you, Mr. Secretary.
    Mr. Kildee. Mr. Andrews.
    Mr. Andrews. Mr. Chairman, do we have a before-the-gavel 
rule? Because, if we do, I think I would be cutting ahead of 
some other people.
    Mr. Secretary, thank you.
    First of all, I appreciate your interest and your remarks 
about higher education, for trying to find ways to achieve 
value added quality for students; and I look forward to working 
with on you that. I think that we will be guided by the 
principles of having a functioning free market work, where one 
exists so people can vote with their feet and choose the best 
course for themselves and where quality is measured, rather 
than some rough or inaccurate proxy for quality. I look forward 
to us being able to do that.
    I want to ask you a question about K-12 education, and 
thank you for your contributions there. What changes do you 
think we should consider in the supplemental services area? My 
observation about No Child Left Behind is that we have not 
really fully exploited the opportunity to improving learning 
for children and quality of schools by getting the most bang 
for our buck in supplemental services. What kinds of 
innovations would you like to see us consider there?
    Secretary Duncan. I think the biggest thing over time, as I 
have said repeatedly, is that we have to continue to extend our 
time. I think our 6 hours a day, 5 days a week, 9 months out of 
the year isn't enough for our children; and children in India 
and China who our students are competing with are just going to 
school longer.
    I think our students are as smart, as talented, as 
committed, as ambitious as anyone else in the world. I want to 
level the playing field. My concern is that we are putting too 
many of our children at a competitive disadvantage.
    So how we think about schools as community centers, as Mr. 
Kildee talked about, how we think about doing great tutoring 
after school, weekends, summers for students, again 
particularly disadvantaged students, I think we have to be much 
more thoughtful in doing that. What I think, ultimately is we 
need to look at those providers, districts, nonprofits, for-
profits, whatever, who are demonstrating an ability to 
accelerate the rate of growth.
    You have phenomenal players who are doing a great job; and, 
you know, they should have a chance to work with more children. 
You have other players that, frankly, are, you know, driven 
more by profit than by student learning; and they are part of 
the problem.
    And so I think just being--it is not too dissimilar to the 
higher ed point you started with. Where you have good actors, 
that is great. Where you have bad actors--let's be honest about 
it. The thing to me is we have so many children who have so far 
to go. When we talk about college and career-ready standards, 
we are talking about raising the bar dramatically. We are not 
there in far too many of our Nation's States today. If we raise 
the bar, we are going to have to work harder, we are going to 
have to work faster at a time when resources are really 
constrained. How do you get there? You have got to work 
smarter. That is what I am looking for.
    Mr. Andrews. We know, given your track record, you will 
accomplish that.
    I want to ask you about a vexing problem that has vexed 
schools and educators and children, which is the proper 
calculation of AYP for students with disabilities, children who 
are classified under the IDEA. There is no one in this 
committee on either side that ever wants to deprive a child 
with a learning disability issue of the absolute opportunity to 
achieve his or her absolute maximum potential. We never want to 
define limitations or failure for these children and then have 
that become a-self fulfilling prophecy.
    By the same token, we want to be cognizant of a fair 
evaluation of our schools so that we are not holding schools to 
unrealistic standards. A number of schools in my State and my 
district are not achieving AYP because of that one indicator, 
because of the special ed indicator. What would you like us to 
consider with respect to striking that proper balance between 
student achievement and fair evaluation?
    Secretary Duncan. These are really powerful questions. And 
as we think about reauthorization, again, the bipartisan 
support has been phenomenal in the sense of momentum. You could 
make a pretty good case that the toughest issues we have to 
grapple with is how you fairly evaluate students with 
disabilities and how you fairly evaluate English language 
learners. We are spending tons of time talking to national 
experts to try and get this right.
    I will tell you the two extremes, neither of which works. 
One is which you don't hold these students or teachers 
accountable for their progress. And there was a time in which 
these students were swept under the rug and people thought, 
well, if you learn English or you had a disability, you 
couldn't learn. That would be a disastrous outcome.
    Mr. Andrews. We don't want to do that.
    Secretary Duncan. Nobody wants to do that.
    The flip side is when a student, again ELL or special ed, 
is taking an assessment which they can't comprehend. You don't 
want that either.
    So how do you hold folks accountable with an assessment 
that makes sense? That is the middle path, I think, the 
commonsense, logical path, have a high bar for students but 
make sure that they have a real chance to demonstrate their 
skills and knowledge in that assessment.
    I have two people on my team who I am relying heavily on 
their counsel on this. Alexa Posney is working on the IDEA 
side. She is the former State School Chief in Kansas, 
extraordinarily thoughtful on this issue, phenomenal 
credibility, and her counsel I am going to listen to very, very 
closely.
    On the ELL side, the woman who is in charge of my K-12 
agenda is Thelma Melendez; and she was told along the way that 
college probably wasn't for her. And she has lived it. This is 
personal. And she went on to do okay and get a doctorate and 
was an award-winning superintendent, superintendent of the year 
in California.
    So these are people who--this is a passion, and we want to 
get this right. I think there is a commonsense middle ground. 
We want to get as close to that as we can. And, again, we are 
going to work with both sides and with community leaders on 
these issues to fix what is broken but, again, maintain a high 
bar. That is really important to me.
    Mr. Andrews. Thank you, Mr. Secretary. I appreciate it.
    Thank you, Mr. Chairman.
    Chairman Miller [presiding]. Thank you.
    Mr. Souder.
    Mr. Souder. Thank you, Mr. Chairman.
    Mr. Secretary, I would like to make a few comments, and 
then I have an information request and one simple question at 
the end.
    This is a real struggle for some of us. On the one hand, I 
agree with many of the things you are proposing to do, whether 
it is teacher performance measurement, accountability, forms of 
school-based management, public school choice, a lot of the 
things you say and how to measure. On the other hand, as a 
conservative, I don't believe these--I am not part of the 
Federal School Board; and the real question here is, is this 
the position that the Federal Government should be taking?
    Similar disconnect on, in Indiana, right now, our big talk 
is the budget is tight. The governor has cut back. We see 
schools laying off teachers. We see them closing down schools. 
And we come out here, and we are hearing how we are going to 
spend more money. And we are going to spend money on this and 
spend money on that, when our deficits are far bigger than the 
State deficits. And there is an increasing disconnect between 
Washington and the grassroots. They are glad for the money, 
which leads me now into some substantive points here, that you 
have paid tremendous lip service--and I believe it is sincere--
to local leadership and that education should come from the 
local.
    But two phenomenas are occurring here. One is that there is 
a desperation for funds and, therefore, the Race to the Top is 
having a disproportionate steering of local, even if it is the 
right thing to do, than has ever been done before.
    In Indiana, we don't know if we are going to get the funds. 
Yet the bulk of the school districts are racing to implement, 
hoping they can get a few dollars out of the Federal 
Government.
    So the lip service saying this is local really isn't true 
right now. They are redoing at the Federal end.
    The danger here is not your specifics. The danger is that 
many of us don't believe that you cannot have manipulation of 
curriculum, that you can ever have a long term, not whatever 
the latest fad is, for professional development, that when we 
get into whose favorite program is going to be done, the more 
it gets consolidated, the less diversity there will be, and 
that whatever the latest fad will be looking 10 to 20 years 
from now the Federal Government will have usurped that power.
    Somebody who doesn't agree with your approach, which is 
more the American Federation of Teachers approach than NEA 
approach--historically, over the last 25 years, look at Miami, 
Chicago, places that had AFT they were more flexible in these 
type of things. And if we go back to the old approach but now 
it is consolidated, we won't continue to innovate and we don't 
do the things.
    That is a philosophical question.
    Then a point I just wanted to raise to you, because it is a 
dilemma that is a true dilemma right now because, in effect, we 
are seeing a consolidation of approach, even though you are 
giving flexibility to reach some of those goals.
    Another part of that is that States that are actually 
implementing things in--last night, the two largest districts 
in my biggest county, second largest district in the State, 
Fort Wayne, announced they are closing one of the historic high 
schools, Elmhurst, that all teachers would be up for review. 
They have moved the principals from a number of the schools 
that they felt needed to be moved. They are implementing the 
programs now. The second largest district, the most diverse 
district in the State of Indiana, announced they are going to 
have to cut teachers, probably close multiple schools and do 
this.
    When you do your funding, I think it is important that if 
you--because you earlier said the reason that many States are 
resource-challenged and they are struggling with that, that 
those States that are taking the hard actions not even knowing 
whether they're going to get a dime from you aren't punished in 
the process. Actually, they are implementing the programs.
    Because let me say this now from your standpoint. If the 
States that have implemented the programs don't have adequate 
resources, the research is going to show they didn't work 
partly because they didn't have the resources. And some of--as 
you go through this decision process, if you will look at the 
school systems that are really doing it and are committed and 
are actually doing it before the money, they are your most 
likely chances to see that something works. And I hope that you 
will take that into consideration in the process.
    Because, look, Fort Wayne, I am not going to pretend like 
the superintendent is a big supporter of mine or the teachers' 
unions are a big supporter of mine, but they are doing some 
very innovative things and they should be looked at very 
closely because they are making really tough decisions.
    Now, a quick information request. On the student loan 
program, you have in your budget on July 1 that there will be 
the flip. Some of us question whether that flip will occur in a 
good way. Many of the universities don't want to do that. So 
could you provide me with the documentation that outlines past, 
present, future action to make sure that no students will go 
out without loans if that is not passed, in other words, that 
you haven't presumed something and are forcing people if it is 
not the law?
    And then, lastly, a quick question on, in the bill, family 
therapists are not currently allowed in the mental health area, 
whether it is mental health service providers, pupil services, 
or school counseling. This would just be an allowable use, not 
additional money, but I think it is important when we deal with 
mental health, and I want to know if you support that.
    Secretary Duncan. There is a lot there. Let me try and run 
through the answers.
    On direct lending, we are not presuming anything. We just 
want to be prepared. And we think, again, this is a chance to 
stop subsidies to banks, as much as $87 billion, and 
dramatically increase Pell Grants and Perkins loans and tuition 
tax credits for hardworking American families whose children 
desperately want to go to college and they feel they can't 
afford it. It would also enable us to invest about $10 billion 
in early childhood education, which we could make a pretty 
compelling case this is the best investment we could make, all 
this without going back to the taxpayers.
    We simply want to be prepared on our side. Due to the 
private market collapsing over the past 2, 3 years before we 
got here, it has gone from about 1,000 universities 
participating in direct lending to over 2,300. So it has more 
than doubled again before we did anything just because, you 
know, folks needed us.
    So we think this is the right thing to do. There is a huge 
opportunity here to dramatically increase education investment, 
again, simply by stop subsidizing banks and cutting out the 
middleman. The private sector will have 100 percent of the loan 
servicing business. We don't think we should be in that 
business. We don't think we are any good at it. We think the 
private is absolutely the place to play. That is a huge and 
growing market. Good actors will get more business; bad actors 
will get less business. But if we can make college dramatically 
more accessible and affordable for millions and millions of 
Americans going forward we think that is the right thing to do.
    It is interesting, on Race to the Top, what we have tried 
to say is that a few things are important. Having high 
standards matters. Being transparent around data matters. Great 
teachers and principals matter, and being tough minded when 
schools aren't working and having those honest conversations 
matter.
    What we have tried to do to sort of alleviate or to address 
some of your concerns is what we want to do is, whether it is 
Race to the Top or School Improvement Grants, or Investing in 
Innovation Funds or Teacher Incentive Funds, all we want to do 
is put money behind those places that had the courage, to your 
point, and the capacity to deliver better results for students; 
and that's going to take many, many different forms and 
fashions.
    We are not going to come up with a playbook. We don't have 
the playbook. But where folks are raising the bar for all 
students and closing the achievement gap, we want to take those 
innovations to scale. And so where a district is showing great 
work with 1,000 students, let's take that to 2,000. If a State 
is working with half their kids in a way and wanting to reach 
every child, let's get there.
    So what we want to do is use our--and we have been 
absolutely blessed to have this opportunity--use these 
resources to put it behind districts with the courage, the 
capacity, and the commitment to get better results for 
students. So it is not our ideas. It is simply investing in 
that local work to take the scale.
    To your point, districts have never been under more 
financial duress; and so my worry is that they have a good idea 
and they can't move it. We want to put the resources behind it 
to do that. And, over time, where they continue to demonstrate 
ability to close achievement gaps and raise the bar we will 
keep funding them. If those things stop happening, we will take 
that money and go someplace else. And so that is just so you 
understand sort of where we want to go.
    I will say many, many districts on Race to the Top, many 
States, again, everyone desperately wants the money. No 
question. I can't tell you how many conversations I have heard 
with folks in all candor saying to me, yes, we would love the 
money.
    What has happened in the conversations we have had and the 
movement we have had, regardless of whether we get the money or 
not, we have moved light years from whatever would have 
happened before. And whether we get the money or not, we are 
going to keep moving. This sort of unlocked what needed to 
happen in some of these honest conversations. The amount of 
silos in education are staggering, and just getting folks to 
the table and talking has been hugely beneficial. We are going 
to have a very high bar in terms of who we fund, frankly, a lot 
more losers than winners.
    We will come back with a second round. We are proposing 
another $1.35 billion in next year's budget, fiscal year '11. 
To come back with a third round. So we want to keep coming 
back. With the movement you have seen in the States before 
spending a dime, I would say you haven't seen that kind of 
movement in decades; and that in and of itself is of huge, huge 
value.
    Chairman Miller. Mr. Secretary, we only have you--we have a 
memorial service at 11:00, and we agreed that you would leave 
then. Mr. Scott is next, so we will try to do as many members 
as we can, but we're kind of----
    Secretary Duncan. And I will keep my answers to 5.
    Mr. Scott. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    Mr. Secretary, in the last Congress, we passed the Higher 
Education Reauthorization Act, which included a provision for 
modeling and simulation programs. In the last appropriations 
bill, we funded the program. It requires the Department to 
appoint a board, develop a curricula, and fund existing 
programs and new programs. Can you tell me what the status is 
in the administration? Can you tell me that now or in writing 
later? Would you rather do it in writing?
    Secretary Duncan. Absolutely. I will get back to you on 
that.
    Mr. Scott. Okay. We also passed in the House the Campus 
Safety Act, which would provide funding for a Center for Campus 
Safety to prevent and respond to acts of violence on college 
campuses. It passed the House in the last Congress. It passed 
the House again in this Congress, and it has been sitting over 
in the Senate. Can we get some help from the administration to 
see if we can't pry it out of the Senate so that when acts of 
violence--so we can prevent acts of violence and respond 
appropriately?
    Secretary Duncan. I will check on that for you, yes, sir.
    Mr. Scott. At the Budget Committee, you responded to the 
situation of the TRIO programs. There is some concern that the 
TRIO programs' budgets and the fiscal year budgets do not 
correspond, and there is some concern that 187 programs that 
were funded in the reconciliation bill a few years ago may lose 
their funding before--if we don't do something this year. I 
think it is the Department's feeling that if we deal with it 
next year there will be no gap in coverage. Is that still 
your----
    Secretary Duncan. That is correct, and I will reconfirm 
that. And the bottom line is those 187 programs are absolutely 
safe now. We will continue to work with that.
    Mr. Scott. That is fine. You also indicated--I thought you 
said an increase in students for TRIO and GEAR UP. Is TRIO not 
flat funded?
    Secretary Duncan. Yes. TRIO and GEAR UP are flat funded. 
The number of students actually increased last year that were 
served. There has been some debate that the number of students 
went down. That is actually not factually correct. It went up 
about 6,100.
    Mr. Scott. Well, that says more could be served with Upward 
Bound, which is a more comprehensive program, and Student 
Support Services, retention in college. If we could get that 
number for TRIO also increased, I think that would be helpful.
    You have been very articulate on the need to eliminate the 
achievement gap. Can you say a word about how the budget and 
policies will reduce the achievement gap, particularly with 
dropouts?
    Secretary Duncan. Yes. While Race to the Top has gotten all 
the press and attention so far, what folks haven't focused 
enough on are the School Improvements Grants and $3.5 billion 
going to School Improvement Grants. Race to the Top is supposed 
to help all schools in the State or as many as the State 
applied for. School Improvement Grants are focused just on 
those bottom 5 percent of schools across the country. So we are 
putting a huge amount of money by formula out to every single 
State, and so there are unprecedented resources. So what we are 
saying is, where things aren't getting better and we have 
dropout rates of 50, 60, 70 percent, we have to do something 
dramatically different; and we are putting our money where our 
mouth is and putting, you know, huge--tens of millions of 
dollars, in some States, hundreds of millions of dollars out 
there depending on State size to see us break through here.
    For all the huge challenges we face, again, we have never--
I don't think we have ever had more high-performing, high-
poverty schools. So we know what is possible. And so we want to 
learn from them. We want to replicate those successes, and we 
want to put a lot of money out there. I think if we are serious 
about closing the achievement gap we need more time for 
students. And great teachers, great principals matter 
tremendously. You have got to close the opportunity gap.
    Mr. Scott. And we thank you for visiting one of those 
success stories in Newport News.
    Secretary Duncan. Achievable Dream was one of many schools 
that has just blown me away. And am I correct that the 
achievement gap there is basically nonexistent? Is that an 
accurate statement?
    Mr. Scott. That is right.
    Secretary Duncan. And what is the poverty rate of that 
community?
    Mr. Scott. I think just about everybody is on free and 
reduced lunch.
    There are some dropout factories that are achieving AYP. 
Can we be assured on reauthorization that no school with a 
dropout rate of 50 percent will be designated as adequate for 
yearly progress?
    Secretary Duncan. Yes, sir.
    Mr. Scott. And on charter schools, one of--there are some 
good and some bad. I heard a statistic that 80 percent of the 
charter schools are either the same or worse than the 
comparable schools. Is that not right?
    Secretary Duncan. There are lots of studies out there, 
often with competing numbers. I am not familiar with that 
number.
    I would tell you one study that was interesting, because 
there are some legitimate concerns at some charters maybe the 
parents are more involved or high functioning, so there is some 
selection bias. There is one interesting study that I looked at 
that came out of Stanford that tracked--many charters have long 
waiting lists, and some students get in, and many don't get in, 
so it is sort of a little bit more of an apples to apples 
comparison. And they looked at--the researcher looked at 
students who all were on the waiting list, some who got in and 
some who don't, so trying to remove that selection bias.
    And that study--and this is just schools in New York City, 
so it is one example. Again, there is a big country out there. 
But that example showed that students who actually got into the 
charters from the waiting list performed better than those who 
did not.
    But I think, you know, charters are very uneven around the 
country. I think you need a high bar in terms of who you allow 
to open a charter school. This cannot be let a thousand flowers 
bloom. Once you have that high bar and select someone, you have 
to hold them accountable for results, and you have to give them 
the autonomy to get there.
    So those three things: high bar to entry, true 
accountability, real economy. When you see those parameters in 
play, those structures in play, you see better schools. Where 
you don't have those things in play, I think charters just 
perpetuate what is already out there.
    Chairman Miller. Mr. Guthrie.
    Mr. Guthrie. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary for coming here. We met in the 
National Airport not long ago. I appreciate your willingness to 
work, and achievement gap initiatives that you have talked 
about are real important to me as well.
    I think hearing that we are going to be focusing on the No 
Child Left Behind reauthorization this year I think would be 
good that we all work together. So I appreciate that and really 
offer my services to do that and some ideas.
    I have been meeting with superintendents, I have been 
meeting with teachers, and they have a lot of good ideas, 
practitioners, and so we will bring that together.
    On the higher ed Direct Loan and FFEL program, the question 
I have, the money, as I was really looking at the bill when it 
was before us--it has been a little while--but the $87 million 
is being spent. A good part of that money, if I understand, is 
that the Federal Government borrows at a cheaper rate. 
Therefore, the Direct Loan program can borrow money at a 
cheaper rate but still lends to students at the same rate. And 
I would have been more inclined to have supported that if we 
had made it a reduced interest for people to borrow to spend.
    It did move money into the Pell program, which made college 
more affordable. Because I can tell you the biggest fear for 
most people that have a moderate income to higher income in my 
district, there is a lot of help for people with lower income, 
is just the affordability of college. I mean, that is the main 
thing on their mind.
    And then just specific--and Mr. Souder hit it just a little 
bit--is a big concern I think there are people moving into the 
direct loan program now that anecdotally say, we are just 
worried about what is going to happen in July. And I spent all 
of August--and it didn't get a lot of publicity because other 
things happened in August. But the Cash for Clunker program--
which I voted for, so I tried to work through the answers 
with--but people saying, I can't--nobody will take my phone 
call. I have sold a car. Am I going get paid for it? And I can 
see students in August going, well, is my Pell in place? I 
mean, how are we going to prevent that from happening? And if 
we get to that point would y'all support maybe extending to get 
through that point until we move forward?
    Secretary Duncan. What I would say again is that what folks 
don't understand is over the prior 2 to 3 years we have gone 
from 1,000 universities participating to 2,300 universities 
participating, more than doubled our interaction. I don't think 
you have heard a peep. I don't think you have--you know there 
hasn't been any huge stories about lack of service or lack of 
whatever.
    Our FSA unit, I think, has extraordinary leadership. 
Brought in Bill Taggart from the private sector, who I have 
tremendous confidence in. I am absolutely holding him 
accountable for gearing up and preparing. His team has been 
working unbelievably hard to do this. If you are hearing that 
we dropped the ball or a phone call isn't returned, they have 
been doing training out around the country.
    Mr. Guthrie. I am sorry. That was the experience with the 
Cash For Clunker and the Transportation Department. I am just 
hoping--I was just bringing that up as an example. I have not 
heard that from your group.
    Secretary Duncan. So hold us accountable for results. And 
if you are hearing something is not working, please come to me 
directly. We understand this transition and what a big deal it 
is, and we want to make sure we do this absolutely as smoothly 
as is possible.
    And, again, part of the reason I am confident that we can 
do this well--we won't do it perfectly. We will make some 
mistakes--is again I am seeing this mass migration our way 
anyway with the private sector collapse, and so far that has 
been handled I think exceptionally well.
    Mr. Guthrie. But everybody is going to be moving into the 
program over the next few months if the bill I think it passes 
through the Senate, so your volume is going to----
    Secretary Duncan. Many people already have. That is my 
point. Many people already have. There is not going to be a 
huge--there is some additional movement, but this movement has 
started, you know, again, 2 or 3 years ago.
    Mr. Guthrie. Right. Thank you.
    I yield back.
    Chairman Miller. Ms. Woolsey.
    Ms. Woolsey. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary.
    First of all, I would like to echo Congressman Kline's 
request to fund IDEA. This is across the board for all of us.
    Secretary Duncan. Yes, ma'am.
    Ms. Woolsey. Mr. Secretary, charter schools have been a 
successful experiment. It was intended to identify new methods 
in learning and teaching and with the idea--when charter 
schools, when we first started this, when I first got elected 
18 years ago, the idea was to integrate these successes and 
learn from what worked and didn't work into the public school 
system. The idea was not, Mr. Secretary, to result in the third 
rail of education to compete with public education and, as 
usual, leaving the kids most disadvantaged and the districts 
most disadvantaged and most in need to the public school 
system.
    So my question to you is, as we reauthorize ESEA, are we 
going to be committed to ensuring that there is the additional 
support funds, support necessary to incorporate the best 
learning practices and methods and systems that are available 
for every child and those that are actually being left behind? 
Because, Mr. Secretary, some districts, some students are 
considerably more in need of support when they enter the 
classroom. They aren't fed well. They're scared. They don't 
have parental stability. They need supplemental services.
    I always say this. It kind of goes, duh, nobody quite knows 
what I am talking about. But you can't work smarter, you can't 
put together a system or a product if the individual parts are 
flawed. And I worry that we are going to take flawed parts and 
insist that even the best of teachers are able to meet our 
standards.
    Secretary Duncan. I think if children are scared, they 
can't learn. If children are hungry, they can't learn. If 
children can't see the blackboard, they can't learn. And so 
those foundational things--glasses, clothes, food, safety--we 
absolutely have to address those openly and honestly.
    When I ran the Chicago public schools, we fed tens of 
thousands of children breakfast, lunch, and dinner every day. 
We built a program where we have sent a couple thousand 
children home with food Friday afternoons because we were so 
worried about them not eating over the weekends. We gave out 
tens of thousands pairs of eyeglasses free every single year, 
because you have to do those things before you can talk about 
algebra and biology. And so I couldn't agree with you more that 
those foundational essentials we have to do.
    And some folks say, you know, schools shouldn't be doing 
these things. I don't see how we educate without doing those 
things. My mother always said, you know, you can't teach 
someone when their stomach is grumbling. You have to feed 
children. And so these aren't in conflict.
    We are working very, very hard with Secretary Vilsack to 
reauthorize the Child Nutrition Act. I think he is providing 
visionary leadership there. He wants to increase the nutrition 
content of those meals. He wants to make sure snacks that are 
available are healthy.
    The First Lady's anti-obesity program--it is interesting in 
many communities you have this dual issue of obesity and 
hunger. It is fascinating. And so how do you address both sides 
of that same coin? And so we are committed to doing those 
things and want to work hard to do that.
    We also have great--again, whether it is traditional 
schools, magnet schools, gifted schools, charter schools, I 
don't care. We have great schools, all these public schools in 
these communities that face these huge challenges. One of the--
and so we want to learn from those examples that, despite 
poverty, despite, you know, the challenges at home, children 
still achieve at remarkable levels. And so we need to fix those 
issues, but we don't want to ever say that poor children can't 
learn. We need to get there.
    I will tell you, one of the models that has been most 
impressive to me is what Geoffrey Canada has done at the Harlem 
Children's Zone, where he has created great schools but around 
those schools he has created an entire community behind these 
children; and children in Harlem have basically closed the 
achievement gap with children in the wealthiest suburbs. It is 
fascinating. And we want to put $210 million behind what we are 
calling Promise Neighborhoods and trying to replicate that 
success, build entire communities in neighborhoods around the 
country; and we only want to go to disadvantaged communities 
where the biggest need is.
    So I want to let you know that philosophically I couldn't 
agree more. We are committed to getting there, and we want to 
do everything we can to remove every impediment to giving 
children a chance to be successful.
    Chairman Miller. It is the intent of the Chair to go to Mr. 
Thompson and then back to Ms. McCarthy, and then we will 
adjourn the hearing so members can attend the memorial service.
    Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman, Mr. Ranking member; 
and, Mr. Secretary, thank you so much.
    I want to thank you. Last year at one point I reached out 
to you regarding an issue that came up regarding four 
universities in Pennsylvania--Penn State, Pitt, Temple, and 
Lincoln--and I have to tell you I was very impressed. I think I 
heard back from you within 48 or 72 hours, your responsiveness.
    And I also really get a sense from listening to your 
testimony, as a former school board member for many years at 
home, that I think we share the same passion for unleashing the 
innovation of local education at the local level and what can 
come from that.
    I just want to touch on--and I will be brief--go back to 
Mr. Guthrie's discussion with you on direct lending. And I know 
we went from 1,000 to like 2,100, which is great, folks who 
have voluntarily moved to that. I guess I would argue that 
within that is one of my universities I have. I represent seven 
in my rural district. One of them is Penn State. Penn State is 
direct lending. It works well. They are a model for it.
    I would have to say, though, that that is the only 
university that direct lending works for in my congressional 
district. I have six that struggle. And largely it is an 
economy of size. Penn State's got this wonderful university. It 
is very large. It has got lots of infrastructure, and it works 
well. For the other six--and I have met with them on a regular 
basis over the past number of months--they are really 
struggling to do this.
    So I am concerned about the transitioning of the remaining 
4,000 institutions into the Direct Loan, because I really think 
we have cherry-picked voluntarily those who are best adept and 
prepared to go to Direct Loan. They went voluntarily because 
they were ready for it.
    So while the Department has been hosting webinars and 
meetings, and I know you have put, it sounds like, a very 
talented individual as a point person on this, here is my 
question. What sort of plan B do you have, does the Department 
have in place in case the plans to convert just don't go as 
smoothly as what you would like?
    Secretary Duncan. Well, obviously, we are preparing plan A, 
plan B, plan C, but we are really focused on plan A. And the 
only thing I could tell you is we would be happy--if you wanted 
us to do it, we will send staff out next week to sit down with 
you and put those six universities in a room.
    Again, we are doing trainings all around the country. Most 
folks are transitioning literally in a matter of weeks. We are 
seeing every--I am getting reports every couple of weeks. We 
are getting 60, 70, 80 universities making the transition.
    So I don't know all the details of what those issues are at 
those particular universities. But, you know, if you wanted to 
put us in a room with those six next week and walk through what 
the challenges are and what we can do to be helpful, I would 
absolutely welcome that opportunity.
    Mr. Thompson. I appreciate that, Mr. Secretary.
    And, given the circumstances, I will yield back, Mr. 
Chairman.
    Chairman Miller. I thank the gentleman for yielding back, a 
noble person on this committee.
    Mrs. McCarthy. Does that mean I have got to follow suit?
    Chairman Miller. Well, you can decide. Congresswoman 
McCarthy.
    Mrs. McCarthy. Thank you, Mr. Chairman.
    I want to thank Secretary Duncan for covering an awful lot 
of subjects, and we are going to follow up on them. I know this 
is only the beginning of our discussion as we go forward.
    Safe schools, healthy students, I think is important. I 
also want to make sure that we look at the good public schools 
that are working, on how we bring that down to those that are 
underserved. Financial literacy for our young people for the 
future is going to be extremely important, and parental 
engagement. Charters schools, I think we have talked a lot 
about it. That would be a discussion that will go forward, and 
I will send all my questions off to you.
    What I did want to talk about is the gainful employment. 
You had talked about teachers. Right now, on the Recovery Act, 
we were able to save a lot of teaching jobs, but we also know a 
lot of them are going to be aging out soon. It is the same as 
nursing and many fields in the health care.
    And so when we talk about gainful employment--and I am 
glad, because I will work with myself and a number of other 
members on this side of the aisle and the other side to come to 
some sort of agreement. I would also like to see that you did 
recommend a 10 percent income when someone starts working to 
pay back their debt. I think that is going to be extremely 
important.
    But when we are looking at jobs that are not out there 
now--and, believe me, no one here on the committee wants to 
support any kind of schools that are actually failing their 
students or not doing well by the students--but we have to make 
sure that during this particular time that those that are 
graduating and doing very well, their jobs that they are going 
into sometimes are actually lower paying than they were 3 years 
ago.
    The other problem is trying to find a job. So I think we 
need to work on that, how we get through this rough period so 
that students that are getting their education, hopefully, this 
is just a small stopgap and then, you know, we are going to see 
down the road more job opportunities out there.
    Secretary Duncan. Well, one of the most important things 
that we haven't talked about today, and I appreciate you 
bringing it up, is part of this higher ed bill, is this income-
based repayment. And what we want to do--we have lost so much 
great talent, folks who wanted to go into education, had a 
heart for it, had a passion, but because they had 60, 80, 
$100,000 worth of loans, they couldn't afford to do it. So one 
of the things we are talking about is, if we can reduce loan 
repayments to 10 percent of income, and then after 10 years of 
public service--and, obviously, I have a huge bias towards 
teaching, but all public service--so you could be coming out of 
law school and work in a legal clinic or coming out of medical 
school and work in a medical clinic in a low-income community, 
that after 10 years of service all those loans would be 
reduced. So if we can dramatically reduce loan repayments and 
then erase them after 10 years, I think we can get that next 
generation of extraordinarily talented folks to come into 
education. So we are pushing very, very hard here.
    Mrs. McCarthy. And I agree with on you that.
    The other thing, too, is that with the shortage of nursing 
and teachers in the future, you know, we need to look in other 
ways on how we are getting nurses out there. Right now, we have 
plenty of nursing schools. We don't have enough professors to 
be able to teach those that want to come into the field.
    We are also seeing in some of the nontraditional 
universities and career schools, they are actually, in my 
opinion, doing really, really well in nursing schools, 
especially for, you know, when someone graduates from a 
university, pays that 40 or $50,000, then goes to take their 
State boards and don't pass the first time or the second time, 
somewhere they have lost that education. And yet we are seeing 
the scores coming from these nontraditional nursing schools 
graduating at a higher rate and passing the State nursing tests 
the first time around.
    New York State, we treat all schools the same. They have to 
be under the same regulations. We treat our career colleges, 
for those nontraditional students--and I think that we need to 
certainly keep an eye on that. Because there are a lot, a lot 
of people that want to go back to school but don't fit in to 
the regular university or you know, 9 to 5, go to school. You 
can't do that.
    Secretary Duncan. The other piece of, again, this higher ed 
bill, and there is so much here. That is why we are so 
passionate, and we appreciate your extraordinary leadership on 
this. We want to put $10 billion behind community colleges. And 
we think community colleges, whether it is 18-year-olds or 38-
year-olds or 58-year-olds going back to retrain and retool in a 
tough economy, green jobs, health care jobs, tech jobs, we 
think community colleges have been like this underutilized gem 
along the education continuum. So we want to put huge, huge 
resources behind them.
    I have brought in as my under secretary Martha Kanter, who 
was a phenomenal community college president in California. We 
have never had a community college president or someone with 
that experience in that position before. We did that very 
intentionally, because we think community college is so 
important to our agenda. And as families get back on their 
feet, we think community colleges are going to play a huge role 
there, and we want to see them grow and prosper. So it is a 
big, big play there, and we want to be part of the solution.
    Mrs. McCarthy. And I think and I agree with you on the 
community colleges, but I think we need to go into the 21st 
century also, being able to take your classes over the 
Internet, being able to fit your schedule into that.
    And with that I yield back the balance of my time.
    Secretary Duncan. Yes, ma'am.
    Chairman Miller. The gentlewoman yields back.
    Thank you, Mr. Secretary. Thank you to all the members for 
your attendance and, Mr. Secretary, for answering all of the 
questions of the members. I know there are members--Mr. 
Pierluisi has indicated he would like to submit questions to 
you in writing, and if we could get a quick turnaround on those 
questions----
    Secretary Duncan. And I am happy to stick around, if you 
want to.
    Chairman Miller [continuing]. We would appreciate it.
    Let me just say, I guess one of the nice things about 
longevity here is that you have some institutional memory. And 
there is a lot of discussion about whether people in the Race 
to the Top are doing this for the money or their hearts are 
really in it or what have you.
    In the Clinton administration we had something we were 
talking about, Ed Flex. And so we asked Governors who said that 
they would--for additional money, they would create a flexible 
accountability system. And so we gave them the money first.
    I asked for a GAO report. The GAO report came back and 
said, out of I think it was 13 Governors only one Governor who 
was not originally included was not given the grant but then 
asked, why would I not be included? I represent a large State. 
I am from Texas. Only one Governor made any changes with 
respect to accountability, and that was Governor Bush. And the 
rest of the Governors took the money. They just didn't do 
anything for this.
    So I think you might have it right here, that you know the 
idea that you are going to change your loss so you align data 
systems, so you align teacher performance systems, so you align 
these various parts that are already in the law. They've just 
been ignored for almost, well, even before the Bush 
administration. Much of what is in No Child Left Behind was 
there before. It just didn't happen.
    So I think you are right. The energy that has been created, 
the conversations that have been created. But I also think you 
are right, and let's make sure that people meet these 
thresholds.
    It is sort of like, you know, in poker. You want to have 
jacks or better to open. If you don't, don't play.
    Because there is not that much money around. And so I think 
there is some wisdom. It is different. You know, we drop a lot 
of money off to people who are just doing tomorrow what they 
did yesterday. And so I think there is some wisdom in this, and 
I think it has created energy in many parts of the education 
community that now see this as really changing the workplace, 
modernizing it, giving them say, empowering them in those 
school sites within their districts and working in a 
collaborative fashion.
    Many of the reasons why we know teachers leave us, it is 
not just salary. It is isolation. It is lack of contact with 
their peers. It is lack of professional development. There is a 
whole list of things that they cite on these exit interviews.
    So I am encouraged by what you have done, and I thank you 
for being candid with the members of the committee.
    And, with that, all members will have 14 days to submit 
additional materials and questions for the hearing record. The 
Secretary has agreed that if you have questions you want to 
submit immediately in writing they will respond to those from 
members of the committee.
    And, with that, the committee stands adjourned.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Chairman Miller, and Secretary Duncan, for holding this 
hearing on the president's proposed FY2011 budget.
    The Higher Education Act of 1965 requires career colleges to 
provide ``an eligible program of training to prepare students for 
gainful employment in a recognized occupation.'' However, ``gainful 
employment'' has never been defined. It has come to my attention that 
during negotiated rulemaking for the most recent reauthorization of the 
Higher Education Act, the Department of Education proposed defining 
gainful employment by establishing an eight percent debt-service-to-
income threshold based on median student debt for recent college 
graduates with income based either on Bureau of Labor Statistics wage 
data, or, actual earnings of the college's graduates.
    While it is important to address the rise in levels of student 
debt, I have concerns about using a single formula to determine the 
appropriate level of debt for every student in every career path, 
especially during this time of economic uncertainty. I hope that moving 
forward, the Department will work with all interested parties and 
Congress to come together on a definition that works best for students.
    Thank you again, Chairman Miller, for holding this hearing. I yield 
back the balance of my time.
                                 ______
                                 
    [Questions submitted to Secretary Duncan and his responses 
follow:]

                                   [Via Facsimile],
                                             U.S. Congress,
                                    Washington, DC, March 19, 2010.
Hon. Arne Duncan, Secretary,
U.S. Department of Education, 400 Maryland Avenue SW, Washington, DC 
        20202.
    Dear Secretary Duncan: Thank you for testifying at the Committee on 
Education and Labor's hearing on, ``Building a Stronger Economy: 
Spurring Reform and Innovation in American Education,'' on March 3, 
2010.
    Committee Members have additional questions for which they would 
like written responses from you for the hearing record.
    Representative Raul M. Grijalva (D-AZ) has asked that you respond 
in writing to the following questions:
    1. With regard to ESEA reauthorization, you have outlined a vision 
that foresees a much greater commitment to competitive grants for 
schools that are doing what works. Can you tell me how the Department 
of Education plans to specifically address the schools in crisis with 
high dropout rates that need immediate attention and assistance?
    2. Does the Departments increased commitment to competitive grants 
envision that schools competing for the various grants should be placed 
within brackets to compete with schools that are similarly situated so 
that schools that face a myriad of obstacles to success are not forced 
to compete with schools that face fewer obstacles?
    3. Any commitment to turning around high schools with high dropouts 
will only be successful if it also addresses the feeder system, and 
specifically the middle grades. What level of commitment does the 
Department of Education have toward middle school intervention, and 
does this vision acknowledge middle schools as an integral part of 
dropout prevention and college and career readiness?
    4. As you know, the current ESEA bill does not go far enough in 
recognizing LEP students and guiding states toward academic proficiency 
and accountability for these students. What is the Department of 
Education's vision to address the large and quickly growing number of 
non-English speakers, not just in Title III reform, but also throughout 
Title I?
    5. Research studies show that reading for pleasure is one of the 
building blocks for young people to grow into healthy, productive 
adults. Public libraries can play a major role in helping children 
develop a habit of reading for pleasure. What is the Department's 
commitment to school libraries, public libraries and library programs?
    Representative Carolyn McCarthy (D-NY) has asked that you respond 
in writing to the following questions:
    The FY11 budget you submitted creates a new ``Safe Schools, Healthy 
Students'' programs. A number of separate programs are combined into 
this one program, including the Safe and Drug Free Schools program. As 
you know, I am a strong proponent of school safety and look forward to 
continuing to work together on these efforts. You and I both know well 
the effects that schools and community violence can have on our 
students' ability to learn.
    1. Can you describe how you see the ``Safe Schools, Healthy 
Students'' program working, both to address physical violence in 
schools as well as bullying and harassment?
    2. I believe we ought to eliminate the term ``persistently 
dangerous schools'' in ESEA, but we ought to preserve the right for a 
student in a school that does not have a safe climate for academic 
achievement or who has been physically assaulted to transfer to another 
school. Do you agree?
    3. How will the proposed budget ensure that our schools continue to 
receive the funding they need to keep them safe and keep out drugs?
    We spend so much time talking about failing schools and how to 
improve them.
    1. What about also looking at good schools and seeing what is 
working there--on school safety, on reading and math, on nutrition--and 
how we can expand them?
    2. Also, how they could these successful schools serve as a 
regional model to other schools that are struggling?
    AFT President Randi Weingarten recently announced a new proposal 
for supporting teachers that included a teacher evaluation system based 
on multiple measures, including student test scores.
    1. What is your reaction to this proposal?
    2. How do you think this proposal affects the ability to move ahead 
on ESEA reauthorization this year?
    I am a big proponent of financial literacy education for our 
students and consumers. I am the sponsor of the Financial and Economic 
Literacy Improvement Act of 2009, which will provide grants to improve 
financial literacy education for K-12 and college students, as well as 
adults. As a nation, we have all been impacted by the effects of our 
struggling economy. While there are many factors that have contributed 
to the current economic climate and there is no one cause, we do know 
that consumers need to be more aware and informed of how their finances 
work and how to avoid some common financial pitfalls.
    1. How do you propose we increase financial literacy education in 
our schools as we move forward with ESEA?
    I was wondering if you can talk about the importance of parental 
engagement in our children's education. I am preparing to introduce the 
Family Engagement in Education Act. This bill will strengthen the 
parental involvement provisions in ESEA by providing the foundation and 
capacity for family engagement on the federal, state, and local levels 
that supports best practices and meaningfully engages families to close 
the achievement gap. I want to see that parents have more of a role in 
decisions about their children's academic career and safety in schools. 
This could be one of the biggest factors that can close the achievement 
gap.
    2. How do you view the role of family engagement in education?
    How can we strengthen family engagement as we move forward with the 
reauthorization of ESEA?
    Secretary Duncan, you have placed a big priority on charter schools 
as evident in the Race to the Top application. I have been a supporter 
of charter schools and believe we have and can continue to learn a lot 
from them, including their successes in school safety. The President of 
Adelphi University, Bobby Scott, recently wrote a great piece in Long 
Island Business News called ``Public Schools Can Succeed, which I would 
like to place into the hearing record. [See below]. President Scott 
talks about the need to give schools the resources they need and the 
fact that the root problems at many of our public schools are also 
ignored. He also talks about how while charters are an interesting 
model, they can still limit their size, are free from many regulations, 
and decide who is principal and who can teach.
    1. How can we guarantee that an expansion of charter schools will 
not come at the expense of our commitment to public education in this 
country?
    2. How can we ensure that all students, including those with 
disabilities, receive appropriate support and services in our nation's 
education system?
    I have a question based on my discussions with the Teacher Leaders 
Network, a group of active communities of highly accomplished teacher 
leaders from across the nation, dedicated to student success and the 
transformation of teaching into a true profession. On February 2nd in 
Nashua, President Obama responded to a question from a teacher about 
ESEA by stating that he intends to pursue ``richer assessments'' 
instead of the standardized tests currently in use--and involve 
teachers in the process.
    1. How does the Department of Education intend to pursue this goal 
of pursuing richer assessments?
    2. How do you anticipate teachers will be involved in this process?
    3. By whom and how will these new assessments be designed and 
adopted?
    As you know, the current effort at voluntary Common Core Standards 
is moving along well but being designed by groups lacking any input 
from current classroom teachers. I believe it is essentially to have 
regular and timely input from actual classroom teachers when education 
policy is discussed. That is why I have introduced the Teachers at the 
Table Act to create a voluntary teacher advisory panel consisting of 
classroom teachers, to report to Congress on implementation and effect 
of ESEA on students and families.
    1. How can you assure the Congress that the voices of those who 
will have to carry out any policy, our classroom educators, are 
included in all discussions about policy as the department moves 
forward with reauthorization of ESEA?
    I have concerns regarding the Gainful Employment concepts presented 
by the Department at the recent Negotiated Rulemaking hearings. As a 
Nurse, I am aware of the shortages of Nurses facing our country. If 
Mark Kantrowitz of Finaid.com is correct, almost all Bachelor degree 
programs and many Associate degree programs in nursing and other allied 
health occupations at the targeted institutions would be eliminated by 
the Department's proposal. Not only would we lose these needed 
healthcare workers, we would limit or eliminate critical programs to 
students who do not have access in the overcrowded public institutions.
    1. How will the gainful employment proposal limit student 
indebtedness?
    2. How many programs will the proposal effect? Specifically, how 
many nursing students are currently enrolled in potentially affected 
programs?
    3. How did the Department arrive at the 8% calculation for gainful 
employment?
    4. Don't we already have in place Income Based Repayment, which 
creates a method for borrowers to limit their annual educational debt 
repayment to a reasonable, affordable amount, 15% of income?
    Representative Carol Shea-Porter (D-NH) has asked that you respond 
in writing to the following questions:
    1. Competitive Grants
    President Obama's budget proposes to shift a great number of 
programs from formula funding to competitive grants. Under this 
proposal, how do we ensure that smaller states like New Hampshire 
aren't disadvantaged by this shift?
    We aren't afraid to compete. There are actually quite a few 
innovative approaches that we have taken in the state that we are all 
very proud of, but we face a challenge in a lot of the rural 
communities where the LEAs don't have a grant writer--and they don't 
have the resources to hire a grant writer.
    How do we ensure that smaller states--and rural communities within 
those smaller states are not put at a disadvantage here?
    2. Race to the Top / Principal Replacement
    In the Race to the Top application, one of the steps required was 
the replacement of the principal of a school. We all know that there 
are certain circumstances where a principal is doing the best they can 
with the resources available. Certainly, it is time for some principals 
to move on. But there are also those (and teachers too) who have poured 
their hearts into their work and really are doing their best with the 
resources available.
    I have real concerns with rigid requirements that preclude the 
state or LEA from working with these principals--especially when at the 
local level they have been recognized as a key player in the community. 
So going forward, how do we as Federal policy makers provide this 
flexibility to the states?
    3. Charter Schools
    In the coming months, we are going to be looking at the 
reauthorization of the Elementary and Secondary Education Act (ESEA). 
In this Committee we recently had a hearing on the role of charter 
schools and looked at a bill that would make it easier for charter 
school expansion. We have seen a lot of discussion about the need to 
create more charter schools. But there has been little discussion about 
how we best disseminate any successful innovations taking place at our 
existing charters. So my question is this: Going forward, as we 
consider committing additional resources to expanding charters, how do 
we also make sure that we are committing appropriate resources to help 
our traditional public schools implement appropriate innovations?
    4. TRIO Funding
    The FY2011 TRIO appropriation will fund TRIO grants for academic 
year 2011-2012. However, because $57 million in mandatory funds for the 
nearly 200 Upward Bound programs provided by CCRAA went into effect 
immediately (i.e., academic year 2007-2008), the last academic year for 
which funds are available is 2010-2011. By failing to include $57 
million in additional discretionary funds to account for these programs 
in academic year 2011-2012, there is significant concern that the 
Administration will not be able to maintain the current number of 
Upward Bound projects (956 total). Some estimates show that the FY2011 
budget request only provides enough funds to support 778 Upward Bound 
programs in academic year 2011-2012. Given this situation, how are the 
College Cost Reduction and Access Act-funded Upward Bound projects 
going to be protected from elimination? Where will the funding to 
continue all 956 Upward Bound programs come from? Based on the budget 
request, how does the Administration intend that Congress sustain these 
programs?
    Representative Judy Chu (D-CA) has asked that you respond in 
writing to the following questions:
    Secretary Duncan, I've expressed my concerns to you with respect to 
Race to the Top. It was very controversial in California and in other 
states, yet you are asking for a significant continued investment 
without any accountability. The winners of the 1st round of funding 
haven't even been announced and no one knows if this funding will be 
successful in closing the achievement and increasing graduation rates. 
I have two questions.
    1. Why should we provide $1.35 billion for Race to the Top without 
any measure of success?
    2. Before you solicit for a third round of funding, will you look 
into revising the guidelines so that more states will be eligible?
    California has rigorous education standards. But raising academic 
standards alone is not enough to ensure that all students, especially 
low-income and minority students, will graduate from high school and 
succeed in postsecondary education and the workforce. Resources and 
support must be in place to help schools ensure that all students 
achieve this goal. I believe one of the greatest reforms needed in No 
Child Left Behind was the unfunded mandate of over $85 billion, which 
has left our states and school districts in a poor state.
    1. How are you going to make sure that every standard the federal 
government imposes on states to qualify for funding is matched with the 
resources necessary to achieve those standards so these new standards 
aren't really the same unfunded mandate from No Child Left Behind?
    In California, I had a record of bringing people together and I 
hope to continue that record here in Congress. I know President Obama 
has not always sided with teacher unions, but we should still look for 
their support. I am looking at teacher evaluations, where we agree and 
I think there's room for both sides to get what they want. I hope you 
and the President are looking for union support and will work with me 
on getting union support.
    I'm disappointed at the remarks made by President Obama yesterday 
with regards to the Rhode Island teacher firings. The comments don't 
send a very good signal to teachers. We should be trying to bring 
unions and teachers to the table.
    We need to retain and build talented teachers, not just fire them. 
This morning I read that the Central Falls High School staff offered a 
comprehensive reform plan for turning around the high school. I think 
we should start there. It's not as easy to start a school from scratch 
like some may think. In fact, we heard testimony in this Committee room 
that a school in Minnesota, Thomas Edison High School, was under 
similar circumstances and they totally turned the school around. They 
retained 60 percent of their teachers, had professional development, 
increased instruction time and a collaborative teaching and learning 
environment. Teachers are not the only problem and they need to be a 
part of the solution.
    1. Did you or any of your staff talk to any teachers or parents at 
Central Falls High before your comments applauding the administration's 
actions?
    2. What is the procedure for the Administration to take a position 
on teacher firings?
    3. How does your Administration plan on working with teachers 
unions on this issue and on ESEA Reauthorization?
    Secretary Duncan, I am pleased to see in your budget a nod to the 
growth of English learners and recent immigrant student population as 
well as a $50 million increase in your budget request. I am still 
concerned that we are not paying enough attention to the EL population 
and their needs are being ignored because of language barriers. In 
particular, I've heard troubling reports of EL misclassification. 
Language barriers are preventing EL's from participating in gifted 
programs, language barriers are preventing EL's from being identified 
for specials needs and language surveys are misclassifying students who 
speak English as English Learners.
    While states like California, Texas, and New York have had English 
learners for many years, other states like Alabama, Kentucky, North 
Carolina and Tennessee have experience a 300 percent or higher growth 
of bilingual learners. While I appreciate the 6.6 percent increase, it 
is not nearly enough to provide for the growth of our English learners 
across the country.
    1. How does the Department of Education plan on supporting school 
districts with the growth of English Learners and closing the 
achievement gap if grant funding is not keeping up with the growth in 
student population?
    Secretary Duncan, your budget supports increasing alternative 
teacher training programs, but I believe some of these alternative 
certifications don't put enough emphasis on pedagogical methods and 
quality teacher preparation. In fact, Timothy Knowles, who you may know 
is the Urban Education Institute director at the University of Chicago, 
was quoted saying ``Making the assumption that teacher certification is 
a proxy for teacher quality is a dangerous one.'' I don't oppose great 
programs like Teach for America, but in effect, your budget diminished 
the importance of schools of education, like California State-LA, for 
Teacher Quality Partnership Grants by eliminating their eligibility.
    1. Why have you eliminated eligibility for higher education 
institutions for the Teacher Quality Partnership Grants?
    2. How would LEAs manage a grant program that provides teacher 
training when they should be focused on K-12 education for students?
    The research is undeniable that when at-risk children experience 
high-quality early learning programs, they have better school, 
employment and life outcomes. However, not all children, including 
children in my district have the option for early education. According 
to Los Angeles Universal Preschool, the 32nd district of California has 
the greatest needs for pre-school access in all of LA County. A 
majority of the population of 4 year olds in my district could not 
choose to go to preschool because they are none available. Your budget 
has frozen funding for IDEA Preschool Grants, a program that has seen a 
decrease in funding every year since 1992.
    1. How is your budget going to expand much needed high-quality 
early learning programs?
    I started my career in public service at the Garvey School Board 
and know first-hand how some of the school districts handle their 
education budgets. Competitive grants make it extremely difficult to 
for states and schools to develop and plan their budgets since they are 
not sure whether or not they will receive funds, how much they will 
receive and when they will get the funds. In addition, in these tough 
economic times, many school district headquarters staff have been laid 
off and are operating on skeleton crews to keep teachers in place.
    1. Why are we creating this budgetary chaos for our schools and how 
do you expect them to deal with this uncertainty?
    Representative Tom Petri (R-WI) has asked that you respond in 
writing to the following questions:
    Under your leadership, the Department has been talking a great deal 
about innovation, particularly regarding assessment. In many cases, 
however, the policies of the Department seem to lag behind innovation. 
One of the types of assessment that several states are looking at is a 
computer adaptive test that uses items at, below and above grade level 
to determine with a great deal of accuracy the exact level at which a 
student is performing. Using items outside of grade level is a very 
useful tool to determine the exact level at which students are 
operating. I know that over 50 percent of the school districts in my 
Congressional district and more than 50 percent of the school districts 
in Wisconsin are paying extra to contract with a provider to conduct 
this sort of testing at the school district level because they find 
that it provides more immediate and more useful data for their 
teachers.
    1. Is this the kind of innovation in assessment that you support?
    Representative Buck McKeon (R-CA) has asked that you respond in 
writing to the following questions:
    1. SES providers create a number of jobs, especially in low-income 
areas. Can you tell me how many jobs are created by the SES industry 
and further can you tell me how many of those jobs are held by teachers 
that are able to supplement their salaries by working for an SES 
provider outside of the school day?
    2. Under the final requirements issued by the Department on 
December 3, 2009 for the School Improvement Grants program, an SEA is 
authorized to seek a waiver to permit a school that implements a 
``turnaround'' or ``restart'' model to ``start over'' in the school 
improvement timeline. Because of this new waiver, students currently 
receiving free tutoring will lose valuable academic opportunities while 
the LEA figures out how to implement a new ``turnaround'' or 
``restart'' system that will hopefully lead to improved academic 
achievement in its struggling schools. What is the Department's plan to 
ensure that students (many of whom are performing at several grade 
levels behind their peers) who have been receiving extra help--through 
free, individualized tutoring--continue to receive intensive academic 
interventions as the LEA works to turn around its struggling schools?
    Representative Mark Souder (R-IN) has asked that you respond in 
writing to the following questions:
    1. I am concerned about the July 1, 2010 effective date that was 
included in the House-passed version of SAFRA and included in your 
budget proposal. While we have seen an increase in the number of 
schools that have transitioned into the Direct Loan (DL) program, there 
are still thousands of schools in FFEL, despite the Department's best 
arm-twisting efforts to push schools into the Direct Loan program. I 
have also heard from schools that the transition to DL is NOT as easy 
as flipping a switch. Can you provide me with documentation that 
outlines the past, present and future actions the Department has put 
into place to ensure that no students will go without timely access to 
federal loans should the July 1, 2010 date remain unchanged?
    2. Despite the obvious skills that Family Therapists can bring to 
children in the schools, the growing problem of mental health issues in 
schools and shortage of personnel the ESEA omits Family Therapists from 
the list of professionals identified as qualified to provide mental 
health services. Would you be in favor of amending ESEA to list 
Licensed Family Therapists alongside professional counterparts under 
the definitions of: 1) ``school based mental health services 
providers,'' 2) ``pupil services personnel,'' as well as 3) adding 
Family Therapists to the list of recognized professionals in school 
counseling programs?
    Representative Cathy McMorris Rodgers (R-WA) has asked that you 
respond in writing to the following questions:
    1. Well before the enactment of No Child Left Behind, there was the 
Eisenhower Professional Development Program which focused on improving 
the skills and content knowledge of K-12 teachers in mathematics and 
science. No Child Left Behind transitioned this program into the 
broader based Teacher and Principal Training and Recruiting Fund. I am 
concerned that our students are falling behind in the critical areas of 
math, science, technology, and engineering. Can you discuss how your 
budget puts forward proposals that ensure teachers are prepared to 
effectively teach these subjects?
    2. One aspect of the Budget that I'm extremely concerned with is 
the restructuring of the Perkins Loan program. As you know, this 
program was established in the late 1950s in fear that we were failing 
behind technologically to the former Soviet Union and its space 
program. Despite its success for the last half century in providing 
financial aid to a critical student population, it was restructured as 
part of SAFRA. Concerns have been expressed by many in the higher 
education community that as currently proposed the program will not 
serve the needs-based population that it was intended to serve. Would 
you comment?
    Representative Judy Biggert (R-IL) has asked that you respond in 
writing to the following questions:
    In January, I held a roundtable with local educators and 
superintendents from my district to discuss their views on Race to the 
Top. Probably the biggest complaint that I heard was that they were 
being asked to sign memorandums of understanding when there were still 
so many unknowns about the program. Many of my constituents also 
expressed concern that all of the money awarded would go to the City of 
Chicago.
    1. I have read the detailed grading rubric put out by the 
Department, but can you give us more detail about how the money will be 
allocated to local districts?
    2. How are you ensuring that suburban and rural school districts 
have a chance to get their fair share of the funds?
    As a former school board President, I firmly believe in local 
control of education. One of my biggest concerns with Race to the Top 
is that states are graded based on their willingness to join a 
voluntary multi-state consortium dedicated to creating national 
education standards. While I understand that most states joined 
voluntarily, I am very concerned that this could be a first step toward 
what is effectively a national education board.
    1. Can you assure me that education standards will ultimately 
remain a state and local decision?
    I was recently contacted by Rasmussen College, a proprietary school 
in my district, with concerns about the Department of Education's 
efforts to redefine ``gainful employment'' in the Title IV student loan 
program by regulation. As you know, the current draft proposal would 
prohibit students at proprietary schools and in certain other non-
degree programs from borrowing if the interest on that student's loans 
would exceed 8% of his/her expected income. If this proposal were to be 
put into effect, it would have severe negative consequences for many of 
my constituents, including those who intend to work in high-need 
occupations. According to Robert King, Chairman of the school:
    Under the proposed ``gainful employment'' calculation, Rasmussen 
College's School of Nursing students would not be eligible for Title IV 
funding as the debt-income calculation is above 8%. The State of 
Illinois is expected to experience a 21,000 nursing shortage by 2020 
and Rasmussen College wants to help fill that gap. Our College has an 
average 94% retention rate among nursing students each quarter and more 
than 90% of our nursing graduates pass their nursing certification 
exams, with several of our campuses achieving 100%. With a nursing 
placement rate of 98%, ED's proposals run counteractive to President 
Obama's goals of increasing the educational attainment levels of all 
Americans and simultaneously creating jobs.
    I agree with the college's assessment of this proposal, and would 
like you to address the following questions:
    1. If the purpose of this proposed regulation is to protect student 
welfare, why does it almost exclusively affect proprietary schools?
    2. Where did the 8% debt threshold originate?
    3. Would you consider increasing the debt-to-income ratio? How 
about making exceptions for high-demand professions?
    As you know, I'm very concerned about the education of children and 
youth who are homeless. The last ESEA reauthorization included the 
McKinney-Vento Act, legislation that I authored to address the barriers 
faced by homeless students, so that school could be a place of 
stability and opportunity. I will soon introduce legislation to refine 
and strengthen this program in the next reauthorization. The 
President's FY2011 budget does not include any increase in funding for 
this program, despite the fact that the numbers of homeless students 
reported by public schools have increased by 40% over the past two 
years.
    1. What is the Administration's vision for addressing the 
educational needs of homeless students?
    2. What efforts are being made to ensure that students who are 
homeless have access to all existing federal educational programs, 
including Title I Part A, early learning, and higher education?
    3. Do I have your commitment to work together on this issue, so 
that being without a home does not mean being without an education?
    Please send an electronic version of your written response to the 
questions in Microsoft Word format to Calla Brown of the Committee 
staff at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0162606d6d602f63736e766f416c60686d2f696e7472642f666e77">[email&#160;protected]</a> by close of business Thursday, 
March 29, 2010, the date on which the hearing record will close. If you 
have any questions, please do not hesitate to contact Ms. Brown at 202-
226-2068.
            Sincerely,
                                             George Miller,
                                                          Chairman.
                                 ______
                                 
    [Secretary Duncan's responses to questions submitted 
follow:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [Whereupon, at 11:14 a.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
